<html>
<title> - SELECT COMMITTEE ON THE EVENTS SURROUNDING THE 2012 TERRORIST ATTACKS IN BENGHAZI, LIBYA - HEARING 3</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                               HEARING 3

=======================================================================

                               HEARING 3

                               before the

                          SELECT COMMITTEE ON
                          
                         THE EVENTS SURROUNDING
                         
                           THE 2012 TERRORIST
                           
                           ATTACK IN BENGHAZI

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                HELD IN WASHINGTON, DC, JANUARY 27, 2015

                               __________

 Printed for the use of the Select Committee on the Events Surrounding 
                 the 2012 Terrorist Attack in Benghazi


                       Available on the Internet:
                             www.fdsys.gov
                             
                                  ______

                      U.S. GOVERNMENT PUBLISHING OFFICE 

93-579 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                            
                             

                   HOUSE SELECT COMMITTEE on BENGHAZI

                  TREY GOWDY, South Carolina, Chairman
LYNN WESTMORELAND, Georgia           ELIJAH CUMMINGS, Maryland
JIM JORDAN, Ohio                       Ranking Minority Member
PETER ROSKAM, Illinois               ADAM SMITH, Washington
MIKE POMPEO, Kansas                  ADAM SCHIFF, California
MARTHA A. ROBY, Alabama              LINDA SAANCHEZ, California
SUSAN BROOKS, Indiana                TAMMY DUCKWORTH, Illinois

                           Professional Staff

                       Phil Kiko, Staff Director
            Susanne Sachsman Grooms, Minority Staff Director

 
                               HEARING 3

                              ----------                              


                       TUESDAY, JANUARY 27, 2015

                  House of Representatives,
                                   Select Committee
                                               on Benghazi,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:31 a.m., in room 
HVC-210, Capitol Visitor Center, Hon. Trey Gowdy (chairman of 
the committee) presiding.
    Present: Representatives Gowdy, Brooks, Jordan, Pompeo, 
Roby, Roskam, Westmoreland, Cummings, Saanchez, Schiff, and 
Smith.
    Staff Present: Philip G. Kiko, Staff Director and General 
Counsel; Chris Donesa, Deputy Staff Director; Dana Chipman, 
Chief Investigative Counsel; Sharon Jackson, Deputy Chief 
Counsel; Craig Missakian, Deputy Chief Counsel; Carlton Davis, 
Investigator; Luke Burke, Investigative Detailee; Brien 
Beattie, Investigator; Paige Oneto, Clerk; Paul Bell, Minority 
Press Secretary; Linda Cohen, Minority Senior Professional 
Staff; Shannon Green, Minority Counsel; Susanne Grooms, 
Minority Staff Director; Jennifer Hoffman, Minority 
Communications Director; Peter Kenny, Minority Senior Counsel; 
Laura Rauch, Minority Senior Professional Staff; Dan Rebnord, 
Minority Professional Staff; Kendal Robinson, Minority 
Detailee; Mone Ross, Minority Staff Assistant; Heather Sawyer, 
Minority Chief Counsel; and Brent Woolfork, Minority Senior 
Professional Staff.
    Chairman Gowdy. Welcome, everyone. This is the third 
hearing of the Benghazi Committee. The committee will come to 
order. And the chair notes a quorum of two Members for taking 
testimony is present.
    The chair will further note--well, before I note that, 
consistent with the rules and practices the House, without 
objection--well, that point has now been rendered moot. So you 
have been reappointed to the committee, and all members can 
participate fully.
    The chair will recognize himself and then the ranking 
member for purposes of making an opening statement.
    The Committee on Benghazi exists because the House of 
Representatives voted for it to exist and, in the process, made 
it very clear what is expected. If you have not read the House 
resolution authorizing this committee, I would encourage you to 
do so. For those asking for a roadmap or a scope of the 
investigation, or who want to know what the committee intends 
to do, the resolution passed by the House of Representatives, I 
hasten to add with seven Democrats voting ``yes,'' answers all 
of those questions.
    The resolution asked this committee to investigate all 
policies, decisions, and activities related to the attacks, the 
preparation before the attacks, the response during the 
attacks, efforts to repel the attacks, the administration's 
response after the attacks, and executive-branch efforts to 
comply with congressional inquiries.
    The operative word in the resolution is the word ``all.'' 
And the word ``all'' is about as comprehensive a word as you 
could use. So it stands to reason, if you are asked to conduct 
a full and complete investigation into all policies, decisions, 
and activities, you need to access all witnesses and all 
relevant documents. Because the final task assigned to this 
committee is to write a comprehensive report complete with 
recommendations on how to prevent future attacks. And to write 
a comprehensive report, you need access to all witnesses and 
all relevant documents.
    It is essential we talk to every witness with knowledge and 
examine all relevant evidence. If six people witness an 
important event, you cannot credibly report on that event by 
examining one out of the six. Frankly, you can't credibly 
report on that event by interviewing two out of the six. Each 
witness has a different perspective, each witness may have 
observed a different fact, each witness has a different vantage 
point, so, to do your job, you have to interview all witnesses.
    So, too, with documents. It is interesting, but not 
relevant, to note the number of pages agencies produce to 
Congress. What is both interesting and relevant is whether the 
agency has produced all documents responsive to the request. 
Giving Congress 10,000 pages of material out of a universe of 
10,000 pages of material is good. Giving Congress 10,000 pages 
of material out of a universe of 100,000 pages of material does 
not get us any closer to issuing a final report in a timely 
fashion.
    And make no mistake, time is of the essence. The world is 
not a safer place, as some of you may have noted even this 
morning. It is not safer than it was in 2012. So the sooner we 
make recommendations related to the improvements that make 
lives better for the women and men who serve us abroad, the 
better. Moreover, time does not make investigations or witness 
recollections or memories or evidence better either.
    The purpose of today's hearing is to hear from some 
agencies and entities about the state of compliance with 
requests for documents and access to witnesses.
    And we have had some success. The State Department provided 
the committee with 25,000 pages of documents, previously 
provided to the Oversight Committee but now with fewer 
redactions. In addition, this production included, finally, 
15,000 new pages of documents. These documents include 
significantly more traffic from State Department leadership 
than in previously provided information to Congress.
    These new documents are a reminder that no previous 
standing committee compiled or had access to a complete record 
of events, which is precisely why the Speaker constituted a 
select committee to produce a complete, definitive record for 
our fellow citizens.
    Additionally, as of recent, the CIA made available some of 
the documents we requested in November. And while it is good to 
finally receive the new documents, the pace at which this 
process is moving is not conducive to the committee concluding 
its work expeditiously.
    And, frankly, it should not take a public hearing to make 
progress on these requests. Our hearings should be about 
substance, not process. We should be analyzing documents, not 
waiting for them to appear.
    I want to read a quote. ``I can promise you that if you are 
not getting something you have evidence of or you think you 
ought to be getting, we will work with you. And I will appoint 
someone to work directly with you starting tomorrow--with you, 
Mr. Chairman, to have a review of anything you don't think you 
have gotten that you are supposed to get. Let's get this done, 
folks.'' That was Secretary John Kerry, and that was in April 
of 2013.
    So my objective is simple: I want to be able to look the 
family members of the four murdered Americans in the eye and 
tell them we found out everything that we could. I want to be 
able to tell my fellow citizens, including the man from Oregon 
who sat beside me on the plane yesterday, who used to guard 
facilities across the world as a Marine, that we made 
improvements that make women and men who serve us in dangerous 
places safer. And I want to be able to look my fellow citizens 
in the eye, regardless of their political ideation, and say, 
this is what happened, and this is how we can make sure it does 
not happen again.
    So there will be no mystery to my questions today. There 
will be no trickery and no artifice. I want to know when the 
agencies are going to comply with the requests made by this 
committee so we can finish the work assigned to us, because I 
have zero interest in prolonging the work of this committee. 
And, by the same token, I have zero interest in producing a 
product that is incomplete.
    So, in conclusion, I want to be as clear as I can possibly 
be. We intend to access all of the information necessary to do 
the job the House instructed us to do. And we need to access 
that information now. Talking to only some of the witnesses 
will not work, and accessing only some of the documents will 
not work. If you want all of the truth, then you need all of 
the information.
    And we will do it in a respectful way, worthy of the memory 
of the four who were murdered and worthy of the respect of our 
fellow citizens, but it is going to be done. And the sooner the 
agencies make these documents and witnesses available to us, 
the sooner we can do what we were asked to do.
    And, with that, I would recognize the gentleman from 
Maryland.
    [The prepared statement of Chairman Gowdy not supplied]
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I agree with you that we need to have all the information, 
we need to have all the documents, we need to have everything 
that you just talked about sooner rather than later.
    Mr. Chairman and my fellow committee members, I am a bit 
sad to report today that there are major, major problems with 
this committee and its work. Democratic members have grave 
concerns about the partisan path this committee has taken over 
the past year--a path we believe undermines the credibility of 
the investigation itself and the very things that the Chairman 
just said he is fighting for--to make sure that we come out 
with a credible report.
    We spent months trying to resolve these problems privately, 
but we can no longer remain silent.
    When the committee was established last May, many 
questioned whether it would devolve into unseemly partisanship. 
Many worried that it would become a repeat of the Oversight and 
Government Reform Committee, where ridiculous allegations were 
made with no evidence--no evidence--to back them up, excerpts 
of documents were leaked out of context to promote false 
political narratives, and Democrats were cut out of the 
investigative process. I know because I was the ranking member 
and I was cut out over and over and over again.
    In response, Chairman Gowdy assured the families of Chris 
Stevens, Sean Smith, Ty Woods, and Glen Doherty that this 
investigation would honor their loved ones by being bipartisan, 
fair, and based on the facts. One of the things that I said to 
the father of Tyrone Woods is that I would do everything in my 
power to seek the truth, the whole truth, and nothing but the 
truth, so help me God.
    The chairman said that he would ``transcend politics,'' and 
that is a quote. He stated these words, and they meant so much 
when he said them. He said, ``If we engage in a process that is 
not fair according to the American people, we will be punished, 
as we should be, for that.''
    Unfortunately, since then, Democrats have been excluded 
from core components of this investigation. People may find it 
difficult to believe, but eight months into this investigation, 
Democrats and Republicans on this committee have not spoken 
jointly with even a single witness. Instead, we were stunned to 
discover that the chairman and his staff have interviewed at 
least five individuals on their own without including Democrats 
or even notifying us.
    We learned about these interviews from the witnesses 
themselves and from press accounts, not from our Republican 
colleagues. Even worse, when our staff inquired about some of 
these interviews, Republicans downplayed their significance. 
They said these interviews were not important, that one of them 
said nothing, quote, ``of note,'' and that the committee did 
not plan to use them.
    But when we spoke to these witnesses, we got a different 
story. They shared key facts that undermine allegations the 
committee is investigating. Let me repeat that. When Democrats 
had a chance to interview some of these individuals, they 
provided factual information that counters the allegations this 
committee is investigating. Rather than bringing this 
information forward when the committee first obtained it, the 
information was buried.
    The chairman is right; we need all of the facts--facts that 
may not be consistent with some of the things that we are 
hearing--because the families of those four Americans deserve 
that, and the American people deserve it--the truth, the whole 
truth and nothing but the truth.
    These are not actions of a bipartisan investigation, to 
have secret meetings with witnesses. The way to honor the four 
Americans killed in Benghazi is to seek the truth, not to 
ignore the facts that contradict a preconceived political 
narrative. A credible investigation recognizes the importance 
of collecting these facts and putting to rest false allegations 
rather than allowing them to fester.
    To try to address these problems, we asked the chairman to 
hold a vote on basic committee rules. We just want some rules. 
We wanted to ensure that all members, both Republicans and 
Democrats--and I emphasize that, both Republicans and 
Democrats--could participate fully in the investigation and 
would no longer be excluded.
    Some may recall that our hearing in December was delayed 
because Democrats were meeting with the chairman beforehand to 
discuss these problems. As a matter of fact, there were some of 
our Republican colleagues that had drifted into that meeting. 
Following that meeting, the chairman promised that we would 
hold a vote on the committee rules. We even met with the 
Speaker, and he gave his blessings. But no vote has been held.
    What is so disappointing is that this has been going on for 
months. We wrote private letters to the chairman laying out 
these problems in detail, hoping to resolve them. We explained 
that this will not be a credible, fair, or factual 
investigation until the committee holds joint meetings, 
interviews, and discussions with potential witnesses and 
includes all members in key aspects of our work.
    That is not an unreasonable request. In fact, it is exactly 
how several other committees currently operate, such as the 
House Armed Services Committee. And there are those who will 
say that, ``Well, maybe it is not in their rules.'' Well, House 
Armed Services apparently has not decided to move to common 
ground; they decided to move to higher ground.
    But today, after eight months, we still have no committee 
rules, so we have no choice but to make these letters public.
    As we explained last May when we agreed to join the 
committee, we need someone in the room simply to defend the 
truth. But we cannot defend the truth if Republicans lock us 
out. Until this changes, the committee will be viewed as 
nothing more than yet another partisan, expensive, and time-
consuming campaign to continue politicizing this terrible 
tragedy.
    Finally, Mr. Chairman, let me say a few words about today's 
hearing. Many people are concerned about the glacial pace of 
this committee's investigation. But, rather than blaming 
Federal agencies, we should acknowledge that the reason for the 
delay lies in the committee's own actions. The fact is that the 
committee waited six months before sending its first request 
for new documents--six months. It took the committee almost a 
month longer to request witness interviews from the State 
Department. And even now, eight months into the investigation, 
the committee still has not sent a document request to the 
Department of Defense and it has yet to request a single 
witness interview from the CIA.
    Although I continue to believe that the best way forward 
for our committee is to reach agreement on a truly bipartisan 
approach, I can no longer say that I am optimistic that this 
will happen. Nevertheless, our door is always open, and we will 
always be willing to sit down in pursuit of the truth, the 
whole truth, and nothing but the truth.
    With that, I yield back.
    [The prepared statement of Mr. Cummings not supplied]
    Chairman Gowdy. Mr. Rubin, you are recognized for your 5-
minute opening statement.

  STATEMENTS OF JOEL M. RUBIN, DEPUTY ASSISTANT SECRETARY FOR 
  HOUSE AFFAIRS, U.S. DEPARTMENT OF STATE; AND NEAL HIGGINS, 
 DIRECTOR OF CONGRESSIONAL AFFAIRS, CENTRAL INTELLIGENCE AGENCY

                   STATEMENT OF JOEL M. RUBIN

    Mr. Rubin. Thank you, Chairman Gowdy, Ranking Member 
Cummings, and distinguished members of the committee. It is an 
honor to be with you, and thank you for providing me with the 
opportunity to give testimony to your committee this morning.
    My name is Joel Rubin, and I am the Deputy Assistant 
Secretary of State for House Affairs in the Department's 
Legislative Affairs Bureau. In this role, I serve as the 
Department's chief liaison to the House, responsible for 
ensuring that the multitude of foreign-policy issues that the 
House cares about, from fighting terrorism, to preventing a 
nuclear Iran, to expanding our economic alliances in Asia, to 
supporting your constituents when they travel overseas, are 
dealt with both efficiently and effectively.
    I have served in the Federal Government for more than a 
decade, including both as a Hill staffer and as a civil servant 
in the State Department during the Bush administration. I work 
closely with committees and leadership in the House on a daily 
basis, ensuring that the Department's relationships and 
communications with the House are strong. And that is why I am 
here before you today.
    As you know, the State Department has a strong record of 
cooperation with your committee, something which we are proud 
of and something that you yourself recently acknowledged, Mr. 
Chairman--statements for which we are grateful. This is 
consistent with our work prior to this committee's formation, 
as the Department has provided nearly 2 years of steady 
cooperation with Congress on Benghazi by responding to requests 
from 10 committees, through hearings with several officials, 
including former Secretary Clinton, and by providing more than 
20 witness interviews and more than 55 congressional briefings, 
in addition to responding to hundreds of congressional 
inquiries. Since the formation of this committee in May of last 
year, we have provided four briefings and witnesses for two 
more hearings, plus today's. And, crucially, we have produced 
more than 40,000 pages of documents related to the tragic 
Benghazi attacks, all of which are in the hands of your 
committee today.
    Since our most recent conversation with the committee last 
month about its top priorities, the Department has been hard at 
work on implementing your most recent requests for documents 
and interviews. Our progress has been slowed somewhat by the 
holidays and the briefing we provided to you on January 13th, 
but also by the breadth and time span of the document request 
itself. Nonetheless, we will begin producing documents soon to 
the committee to meet this request.
    To put it bluntly, your priorities are our priorities. 
Therefore, in addition to the priority documents we will be 
providing soon, we also look forward to continuing to work with 
your staff to ensure that your requested interviews can 
proceed, so long as they do not jeopardize the Department of 
Justice's investigation and prosecution of the perpetrators of 
the Benghazi attacks.
    It is important to remember that from a management 
perspective we cannot respond to every request for a hearing, a 
briefing, documents, or interviews simultaneously. But we can 
and will prioritize our resources to address each request in 
the order that you identify as most important to you, as the 
committee most recently did in December.
    Turning to your December requests for interviews, your 
staff informed us that, of the 22 names requested, the 
committee's priority was to interview the Diplomatic Security 
agents who served heroically during the attacks. We understand 
the committee's interest in interviewing these agents, and I am 
sure that the committee does not want to take any action that 
would create risks to their personal safety or their ability to 
do their jobs. We at the State Department have concerns that 
the requested interviews will pose precisely such risks. We 
also want to avoid interfering with the Department of Justice's 
ongoing investigations and prosecutions.
    As a result, we have been in ongoing conversations since 
December with your staff, counsel for the agents, and the 
Department of Justice to try to find a way forward that 
accommodates your request without endangering these men and 
their families, without negatively impacting national security, 
and without harming the ongoing investigation and prosecution 
of the perpetrators of the attacks. We are hopeful that an 
accommodation can be reached.
    In closing, we are proud of the significant and steady 
progress we have made on the committee's document and interview 
requests. We are grateful to the committee and its staff for 
your collegiality, and we look forward to continuing to work 
with the committee on its most recent priority document and 
interview requests, of which you will be seeing additional 
tangible responses in the near future.
    Thank you, and I look forward to the committee's questions.
    [Prepared statement of Mr. Rubin follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Gowdy. Mr. Higgins.

                   STATEMENT OF NEAL HIGGINS

    Mr. Higgins. Mr. Chairman, Ranking Member Cummings, and 
members of the committee, thank you for this opportunity to 
discuss CIA's continuing cooperation with the committee's 
investigation. I apologize in advance for my cough.
    Since the committee's creation, CIA has enjoyed a positive 
and productive dialogue with the committee and its staff. As of 
last Friday, CIA had fulfilled all of the committee's requests 
to date. Specifically, since last June, CIA has certified the 
committee's secure workspaces, granted access to sensitive 
compartmented information for 15 members of the committee 
staff, reviewed roughly 40,000 pages of State Department 
documents for CIA equities, and, through the Director of 
National Intelligence, provided the committee with finished 
intelligence products relating to Libya during the period in 
question.
    Last Friday, CIA began production of more than 1,000 highly 
sensitive documents requested by the committee. I understand 
committee staff will begin reviewing those documents tomorrow.
    With regard to committee requests to interview current or 
former CIA officers, we will work with the committee to respond 
to such requests in a timely fashion.
    Working with classified information and interviewing covert 
employees can pose unique challenges for congressional 
oversight. We are committed to providing the committee with 
access to the information you need while safeguarding 
intelligence sources and methods.
    We look forward to continuing our dialogue in the weeks 
ahead, and I look forward to your questions today.
    [Prepared statement of Mr. Higgins follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Gowdy. The chair will now recognize himself for 
questions.
    Mr. Rubin, have you read the House resolution?
    Mr. Rubin. Yes, sir, I have.
    Chairman Gowdy. What is your understanding of what this 
committee has been asked to do?
    Mr. Rubin. My understanding is that the committee has been 
asked to review the incidents related to the Benghazi attacks 
in all of the--as you described at the beginning, in all of the 
aspects that it seeks.
    Chairman Gowdy. So your understanding is that we have been 
asked to look at all policies, decisions, and activities that 
contributed to the attacks?
    Mr. Rubin. Certainly that is our understanding. And we 
support providing information related to that request.
    Chairman Gowdy. That affected our ability to prepare for 
the attacks?
    Mr. Rubin. Well, if that is the--if that is the--ultimately 
the decision----
    Chairman Gowdy. Well, you have read it, right? I mean, you 
have read the resolution, right? You are not disagreeing with 
my interpretation of the resolution, are you?
    Mr. Rubin. No, I am not. And we defer to the committee's 
direction on how it wants to proceed.
    Chairman Gowdy. Including executive-branch efforts to 
identify and bring to justice the perpetrators of these 
attacks? Did you read that in the resolution?
    Mr. Rubin. Sir, I don't have it in front, so I can't quote 
it verbatim.
    Chairman Gowdy. I will be thrilled to get you a copy of the 
resolution.
    Mr. Rubin. Sure.
    Chairman Gowdy. For the meantime, you are just going to 
have to take my word that it also says ``executive-branch 
efforts to identify and bring to justice the perpetrators of 
these attacks.'' That is in the resolution.
    Can you tell me specifically how our interviewing witnesses 
is going to jeopardize the prosecution?
    Mr. Rubin. Sir, the Department of Justice has been clear 
with----
    Chairman Gowdy. I am asking you. It was in your opening 
statement. I am asking you. You tell me, a former prosecutor, 
how our interviewing witnesses that have already been 
interviewed by the ARB, already been interviewed by the Best 
Practices Panel, and, frankly, already been interviewed by the 
State Department--the video that you showed us last week, that 
agent interviewed the witnesses in preparation for a video.
    So if the ARB and the Best Practices Panel and your own 
agency can interview people in preparation of a training video, 
how can Congress not interview those witnesses?
    Mr. Rubin. Sir, no one has said that Congress cannot 
interview the witnesses.
    Chairman Gowdy. You just said that it would jeopardize an 
ongoing prosecution, and I just asked you specifically how.
    Mr. Rubin. My understanding--and I am the chief liaison to 
the House for the State Department--is that our colleagues at 
the Department of Justice have been in touch with your staff--
--
    Chairman Gowdy. Specifically who told you that?
    Mr. Rubin. My colleagues within the State Department who 
work on this on a daily basis.
    Chairman Gowdy. I am looking for a name. Because I have to 
clear up this misconception that simply talking to a witness 
who has already talked to three other investigatory bodies, 
that somehow or another Congress cannot talk to these 
witnesses, even though apparently everybody else can. I am 
curious how that jeopardizes an ongoing prosecution.
    Mr. Rubin. Sir, I am not an attorney, I am not a 
prosecutor. What I am is the chief liaison to the House for the 
State Department. And what I am conveying is that the Justice 
Department has told us that this could have an impact, and that 
they would like to have a conversation with you and your 
committee about that.
    Chairman Gowdy. Do you believe that Congress has the 
constitutional authority to provide oversight?
    Mr. Rubin. Every day I do that with my job. Yes, sir.
    Chairman Gowdy. So you do agree with that. What is your 
interpretation of the phrase ``all policies, decisions, and 
activities''?
    Mr. Rubin. In what context?
    Chairman Gowdy. In any context. How about contributed to 
the attacks? What is your understanding of all policies, all 
decisions, all activities?
    Mr. Rubin. The approach that we are taking at the State 
Department is to provide materials to the committee at the 
direction of the committee.
    The request for interviews that you have reiterated here 
today, I am explaining that the Justice Department has said 
that they would like to have conversations with the committee 
for the concern about the protection----
    Chairman Gowdy. Mr. Rubin, do you----
    Mr. Rubin [continuing]. And the welfare of these agents in 
an ongoing investigation.
    Chairman Gowdy. I want to ask you something. I want to ask 
you something, okay? Because there are 12 people up here who 
may not agree on another single, solitary thing, but every one 
of us agrees that we don't want to do anything to jeopardize 
the physical security of anybody who works for this government. 
Nor does anybody on this dais want to do anything to jeopardize 
an ongoing prosecution. Okay? Can we stipulate that, that 
nobody wants----
    Mr. Rubin. Certainly.
    Chairman Gowdy. To do either of those things?
    Mr. Rubin. Certainly.
    Chairman Gowdy. Will you also stipulate that you can talk 
to witnesses while preserving their identity and not 
jeopardizing an ongoing prosecution?
    Mr. Rubin. I am confident that in the conversations between 
the Justice Department and the committee that those modalities 
can be discussed. I am not----
    Chairman Gowdy. Mr. Rubin----
    Mr. Rubin [continuing]. The expert on how----
    Chairman Gowdy. Mr. Rubin, do you see the Justice 
Department at this hearing?
    Mr. Rubin. No, sir.
    Chairman Gowdy. Do you know why they are not at this 
hearing?
    Mr. Rubin. No, sir.
    Chairman Gowdy. Because we don't have any issues with them. 
That is why they are not here. You just cited a reason to deny 
access to witnesses that even the Justice Department hasn't 
cited.
    So what I want you to do is help this committee gain access 
to precisely the same witnesses that everyone else, from the 
ARB, to the Best Practices Panel, to your own agent who 
compiled a training video, had access to the witnesses.
    Mr. Rubin. Sir, as I said in my opening statement, we are 
happy to have the conversation with you and your staff on how 
to engage on this. And that is something that we are open to. 
We have never said no.
    Chairman Gowdy. Well, and I appreciate that. I appreciate 
that. But I want to make sure that you and I have a clear 
understanding with each other.
    If six people observed an important event and you were 
being asked to write a final, definitive accounting of that 
event, how many of the six would you want to talk to?
    Mr. Rubin. Sir, I understand----
    Chairman Gowdy. That is not that trick question.
    Mr. Rubin. I know it is not a trick question. And I 
understand the point, and this is why we are here.
    Chairman Gowdy. Well, if you understand the point----
    Mr. Rubin. This is why we have provided the quantity of 
documents and worked in collegial terms----
    Chairman Gowdy. Mr. Rubin, we are going to get to the 
quantity of documents in a minute. I noticed that you said 
40,000. That is an impressive number. That is 40 copies of 
``Dr. Zhivago.'' That is 40 copies of ``Crime and Punishment.'' 
That is a lot of pages.
    Forty thousand out of how many? That is our question. How 
many documents? Is 40,000 half? Is it all? Is it two-thirds?
    Mr. Rubin. We have made a comprehensive search, and, as you 
know, the State Department spans 275 missions overseas, 70,000 
employees----
    Chairman Gowdy. I am not asking you to bring any 
ambassadors back.
    Mr. Rubin. We have provided a comprehensive amount of----
    Chairman Gowdy. I am not asking you to bring any 
ambassadors back to search for emails. I am not. Not a single 
one.
    How many employees does the State Department have?
    Mr. Rubin. Roughly 70,000.
    Chairman Gowdy. Seventy thousand?
    Mr. Rubin. Correct.
    Chairman Gowdy. All right. And we have asked for emails 
from seventh-floor principals. Do you think that that is a 
reasonable request when you have been asked to study all 
policies, all activities, and all decisions?
    Mr. Rubin. In your committee's December letter where it 
named principals, first, many--in fact, all of those principals 
have--there are emails, there are documents related to them in 
that 40,000. And, in addition, you and your----
    Chairman Gowdy. Is it your testimony that we have all of 
the emails that we have asked for?
    Mr. Rubin. Well, you and your colleagues prioritized former 
Secretary Clinton's emails, and that is our priority, as I 
stated in my opening statement.
    Chairman Gowdy. Well, I would say multiple emails. If there 
are multiple email accounts, we want all of the emails.
    Mr. Rubin. And----
    Chairman Gowdy. Okay?
    Mr. Rubin [continuing]. We agree. And we are, as I said 
earlier----
    Chairman Gowdy. Okay.
    Well, you may have noticed my colleague from Maryland used 
the word ``glacial.'' I find the use of that word interesting 
when you vote against constituting a committee, when you 
threaten not to participate in the committee, when you 
continually threaten to walk away from the committee, when you 
can't identify a single, solitary person that you would issue a 
subpoena to, when you are prepared to have an ask-and-answered 
Web site before you got the 15,000 pages of documents that you 
just provided, when you expect Members of Congress who are 
having conversations with people on airplanes to stop the 
conversation and say, ``Let me go get a Democrat.''
    You heard the word ``glacial.'' We are going to pick up the 
pace. We are going to pick up the pace. I have no interest in 
prolonging this. None.
    Mr. Rubin. Sir, I assure you that----
    Chairman Gowdy. So you are going to have to----
    Mr. Rubin [continuing]. That we do not either.
    Chairman Gowdy [continuing]. Pick up the pace with us, 
okay?
    Mr. Rubin. Absolutely. And this is why we are here today. 
We have made two witnesses available since the fall of last 
year. We are prepared at any time, proactively, as you and your 
colleagues know, to----
    Chairman Gowdy. I appreciate that, Mr. Rubin.
    Are you familiar with the subpoena that dates back to 2013 
that the Oversight Committee sent with respect to the ARB?
    Mr. Rubin. Yes.
    Chairman Gowdy. Okay. ARB is a statutory creation, you 
agree? Congress created the ARB?
    Mr. Rubin. Yes, it----
    Chairman Gowdy. Do you agree Congress can amend or alter or 
enhance the ARB? If it is a statute, sure----
    Mr. Rubin. Through an Act of Congress.
    Chairman Gowdy [continuing]. Congress can change it, right? 
Do you agree Congress should provide oversight over one of its 
statutory creations?
    Mr. Rubin. Yes, sir.
    Chairman Gowdy. How can we do that if you will not give us 
the documents related to the ARB? How can we possibly do that, 
Mr. Rubin?
    Mr. Rubin. Sir, first, of the 40,000 pages of documents 
that the committee has received, many of those are, in fact, 
related to the ARB.
    Chairman Gowdy. Mr. Rubin, I appreciate--I really do, I 
really do--I appreciate the word ``many.'' I appreciate the 
40,000. I keep coming back to one word that is in the House 
resolution, and that word is ``all.''
    Mr. Rubin. Sir----
    Chairman Gowdy. Do we have all of the documents?
    Mr. Rubin [continuing]. What we have communicated to you 
and to your staff and what we have been grateful for is the 
committee's explanation of its top priorities. And we would be 
very honored to continue to have those discussions. If the ARB, 
as you have noted here, becomes the top priority, that is 
certainly----
    Chairman Gowdy. Mr. Rubin----
    Mr. Rubin [continuing]. Our priority.
    Chairman Gowdy [continuing]. We shouldn't have to pick 
among priorities. You have 70,000 employees. I mean, what we 
are not going to do is identify one tranche of emails and then 
2 months later go depose or do a witness interview with that 
witness and then 2 months later get another tranche of emails, 
when our colleagues on the other side--who, by the way, had no 
interest in forming this committee whatsoever--are now 
ironically complaining about the pace of the committee that 
they had no interest in forming whatsoever.
    It is time for us to pick up the pace. And I am looking to 
you----
    Mr. Rubin. Yes.
    Chairman Rubin [continuing]. To help me do that.
    Mr. Rubin. And that is why we are here, and that is why we 
have continuously engaged proactively with you and your 
committee, and we are happy to continue to do so.
    Chairman Gowdy. Okay.
    Mr. Rubin. And I would mention, the 70,000 employees are 
engaged in their jobs.
    Chairman Gowdy. I appreciate that. I don't want any 
ambassadors, security guards--I don't want anybody taken off of 
an important job. But compliance with congressional inquiries 
is important. And if you have time for condom demonstrations or 
culinary diplomacy, I think you have time to comply with a 
legitimate request for documents from Congress, and I am sure 
you agree.
    And, with that, I would recognize the gentleman from 
Maryland.
    Mr. Cummings. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Rubin, thank you. And I am going to try something a 
little different here; I am going to let you get a complete 
sentence out in response to a question so we can hopefully 
elicit some information.
    But, first of all, the document request. The first document 
request that this committee sent out was on November 18th. The 
committee was formed in May, so--sorry, my math is a little off 
here. Between May and November, that is five or six months 
before the committee made a document request.
    Now, the Chairman would have everybody believe that they 
have been begging for documents from day one and you have been 
stonewalling them and that is the only reason we can't proceed. 
But fact number one is, from May to November, there were no 
document requests from this committee. Okay? If we are not 
interested in dragging it out, that just boggles the mind, that 
you wouldn't make a document request.
    Now, putting aside for the moment that there have been nine 
separate investigations. And, gosh, I don't even know if anyone 
could count up the number of document requests that you have 
received from those nine separate investigations or the number 
of documents that you have, in fact, provided. But the reason 
Democrats on this committee are concerned about the so-called 
``glacial pace,'' is that that is a long time to wait for a 
document request if you are in a big hurry.
    The second interesting thing about the little back-and-
forth right there is, as near as I could tell--and it was hard, 
because you were being cut off so constantly--you have not said 
``no'' to any request to interview a witness. Is that not 
correct?
    Mr. Rubin. That is correct.
    Mr. Smith. So let's just be clear about this. This 
stonewalling effort that the Chairman just described includes a 
situation where you have never said ``no'' to an interview 
request. And the interview requests have been relatively slow 
in coming.
    So maybe we will get to the point where you do say ``no''. 
You were making the legal point--and I am ranking member on the 
Armed Services Committee, and we have been through this with 
investigations before--where the Justice Department always gets 
a little queasy when somebody else wants to interview a 
witness. As a former prosecutor, I know Mr. Gowdy would have 
felt the same way if someone had come in and said, ``Hey, can I 
talk to your witness?'' You always get a little nervous about 
it, but it doesn't mean that you don't do it.
    And I just want the record to be very, very clear here: The 
State Department has not said ``no''. Now, if we get to the 
point where they do, then we can have a conversation about it.
    So that whole little back-and-forth to sort of create the 
illusion that the reason the committee is moving so slowly is 
because of your unwillingness is very unfair to you and very 
unfair to the State Department. There may come a time in this 
committee's investigation when you are being uncooperative, and 
then we can have that conversation. We ain't there yet.
    And these are the issues that Mr. Cummings raised that 
gives us the concern. Why was this committee formed in the 
first place?
    Now, one of the things that I really want to make clear for 
Mr. Gowdy is he is never going to get every single question 
answered and he is never going to get every single document. I 
have been a legislator for 24 years, a prosecutor for a little 
bit of time. I have not yet encountered the event in human 
history where every question gets answered. It is frustrating; 
it is irritating. Because part of it is, if you interview all 
six of those witnesses, you get six different stories, and then 
you can't figure out how to reconcile them.
    We are not going to get every single question answered. And 
to lay that promise out to the families involved--to the people 
whose lives were destroyed by this--that somehow we are going 
to answer every question, when no other investigative committee 
in the history of the world has ever been able to answer every 
question, I think is unfair. That is not what we are doing. We 
have nine separate investigations that have been done.
    So what the Democrats are concerned about on this committee 
is whether or not this committee has a clear purpose. Okay? Or 
is that purpose purely political and partisan?
    Because the other thing that I am readily going to admit is 
that Benghazi was an awful incident in our Nation's history, 
and the people who were in charge when it happened, you know, 
they have to feel very, very bad about it happening.
    It is the nature of being the President that bad things 
happen on your watch. When George W. Bush was President, 9/11 
happened. When Bill Clinton was President, Somalia, among other 
things, happened--18 dead Americans. When Ronald Reagan was 
President, we had two suicide bombings in Beirut. Jimmy Carter 
went through the Iran hostage crisis.
    There is no question that Benghazi is a bad, bad incident 
in the Obama administration. And it has always been my 
suspicion that the purpose of this is to focus on that bad 
incident as much as possible for partisan and political 
reasons.
    Now, we gave them the benefit of the doubt. Said, ``Okay, 
let's see.'' Formed in May. No document request till November 
18th. We are in January. We don't have a vote on the rules. We 
get occasionally a loose timeline for the interviews that seems 
to want to drag it out as close to 2016 as possible. Look, if 
we want to do honor to these families, then let's do a 
realistic investigation.
    And then we have the final fact--and I am sorry, Mr. 
Chairman, it is not just people that you ran into on an 
airplane and didn't tell us. There were specific witnesses that 
were interviewed by the Republican majority, and they didn't 
tell the Democrats. And in a couple of instances, those 
witnesses contradicted the information that the majority was 
seeking--again, information not provided to us.
    Now, I serve as the ranking member on the Armed Services 
Committee, and Buck McKeon and I, when he was chair, and now 
Mr. Thornberry and I, we have had our disagreements. But I will 
tell you, there has never been anything like that, where 
evidence on the other side we just sort of excluded from the 
minority party.
    All of those facts add up to this being a partisan and 
political investigation. Now, if we want to change that and 
actually start trying to work together, that would be 
wonderful. But, as our ranking member pointed out, after we 
raised these issues of interviewing witnesses and not telling 
Democrats, not only wasn't it changed, you are attempting to 
write it into the rules of the committee that that would be 
permissible. So that is our concern.
    The slow pace of this--again, we started in May. We had our 
first document request in November. Interviewing witnesses 
without including Democrats--all of this points to a goal and 
objective of this committee that doesn't have much to do with 
finding out the truth and doesn't have much to do with 
preventing future attacks.
    Now, I hope we get better than that. But I got to tell you, 
what I just witnessed between the Chairman and Mr. Rubin here, 
trying to make it look like they are being stonewalled when 
they are not, hardly encourages me.
    And, again, I will just conclude by emphasizing the fact 
that Mr. Rubin pointed out they have not said ``no'' to 
interviewing a witness. And I agree with Mr. Gowdy. As Members 
of Congress, we are constantly bumping heads against one 
administration or another. We want to interview every witness. 
And when you get to the point where you do say ``no'', well, 
then maybe we will have an argument. But you haven't said 
``no''.
    The documents you are trying to generate--the document 
request, as I understand it--included a request for two years' 
worth of information from about, I don't know, 14 different 
people, all around Libya. And in the era of emails and texts 
and everything else, that is a heck of a lot of information to 
find, and good luck finding it. And I see no evidence that 
either of these gentlemen are not trying their best to find it 
and provide it for us. I don't know if you are going to find 
everything, but it is clear that there is no stonewalling 
effort here, that the reason that we have moved so slow is 
because of the decisions made by the committee.
    Now, I tend to be a little bit more impatient than our 
ranking member. That is why he has got the top job; he is 
better at it. For me, about a week ago when I learned about all 
this stuff, it was time to say, ``Hey, what is the point? What 
are we doing here?'' But Mr. Cummings is a patient and thorough 
man. And if the committee will now begin to include us in these 
things, stop accusing the State Department of stonewalling when 
they are not, and pick up the pace a little bit, I guess it is 
still possible this committee could--could--serve the purpose 
that it stated.
    And, yes, we have all read what the Republican majority 
voted for in creating this commission. They want everything. 
And, it is going to take time to get everything, I would 
imagine. But the mere fact that the House of Representatives, 
controlled by the Republicans, voted for this doesn't change 
the possibility that it is more of a partisan political 
investigation than a legitimate effort to find the truth.
    So I hope some of those things change. And, number one, the 
top of the list--and I will just close with this--it has to be 
bipartisan. You can't be interviewing witnesses, particularly 
when we come to find out that some of those witnesses who were 
interviewed were being interviewed to attempt to establish, you 
know, a line of--an argument--and it turned out that that 
witness directly contradicted that line of argument, and then 
you don't tell the other side?
    And Mr. Gowdy has pointed out he is a prosecutor. You do 
that in open court, you get a piece of information like that 
and you don't provide it to the other side, as a prosecutor or 
a defense lawyer, you go to jail. All right? Because that is a 
violation of the laws of the court. I would hope that Congress 
would at least live up to that.
    So I sincerely hope that we do better. I look forward to 
the documents. I don't envy you your job. There are so many 
documents in the world, but I hope you will provide them. And I 
hope you will provide what this committee asks for, when they 
get around to asking for it.
    I yield back.
    Chairman Gowdy. The chair will now recognize the gentlelady 
from Alabama, Ms. Roby.
    Mrs. Roby. Well, Mr. Rubin, I hope you thank Mr. Smith 
after the hearing for giving you a little bit of a break. I am 
going to ask you a series of questions now to follow up with 
the chairman about the processes.
    We keep talking about those 40,000 documents, this 
universe. I want to get a better perspective from you. Is that 
the universe of documents? Is that your position, that 40,000 
is it? Or is 40,000 one-quarter or one-half? Can you give us an 
idea of what this universe of documents looks like?
    Mr. Rubin. Thank you, ma'am.
    The 40,000 is the accumulation of 2-plus years of 
searching, of gathering of documents from across the entire 
State Department. We have provided these--we provided--
    Mrs. Roby. Right. I am trying to get an idea of, in the 
entire universe of documents that we have yet to receive, as 
Mr. Gowdy said we are looking for all, what portion of that do 
the 40,000--because the 40,000 is a lot of documents. So where 
does that fit into the universe?
    Mr. Rubin. So it is 40,000 pages of documents. I said 
40,000 documents. I mean to say 40,000 pages of documents. That 
is a significant amount. That is what we have found. That is 
what we have searched for, and that what is what we have found.
    Mrs. Roby. But you don't really know at this moment where 
that is?
    And I don't want to get hung up on that. I really want to 
spend the time talking about the processes that you are using 
to gain access.
    So let's start with, are you using a centralized location 
to ensure that you are properly capturing all of the documents, 
or is it mined out to different bureaus?
    Mr. Rubin. I appreciate the question. Thank you.
    At the State Department, we do not have a single person 
responsible for document requests. When we have a document 
request that comes from Congress, the requested information 
sought essentially means that all individuals at the State 
Department who may be related to that information have to go 
looking in their files. Oftentimes, these are desk officers 
responsible for country issues, people working in our military 
affairs bureau, nuclear nonproliferation bureau.
    So we don't----
    Mrs. Roby. Can you tell us right now----
    Mr. Rubin [continuing]. Have one single point of contact.
    Mrs. Roby. Okay. Can you tell us right now how many people 
you have working on the production of documents that have been 
requested as it relates to Benghazi?
    Mr. Rubin. Regarding the collection of documents, I can't 
tell you how many State Department people over the past several 
years have provided documents specifically, because it is 
across the entire----
    Mrs. Roby. So there is not a Benghazi group, so to speak? 
There is not a group of people that have been tapped to say, 
you are in charge of document collection for the incidents that 
happened and the deaths of the four Americans in Benghazi? 
There is not people that have been tapped for that?
    Mr. Rubin. It is a fair management question. And what 
happens is, when we get the information from across the 
building, there are people who review the documents.
    We had a discussion with the committee where we came to an 
agreement with the chairman and the committee that we would at 
the State Department provide minimal redactions of the 40,000 
pages of documents. Those redactions are made by experts who 
look at equities related to----
    Mrs. Roby. Back to my question. Is there a group of people 
that have been tapped as individuals to work on document 
collection for Benghazi? Just ``yes'' or ``no.'' Is there a 
group of people that have been said, you are the Benghazi group 
for document production?
    Mr. Rubin. Again, the production is an effort that is 
across the entire State Department.
    Mrs. Roby. So, no, there is not a Benghazi group.
    And if there is not a Benghazi group, then I would say, 
with 40,000 pages of documents that have already been produced, 
not knowing, you know, in the universe of documents, what 
percentage that 40,000 pages is, why has there not been--of the 
70,000 employees that you referenced before, why has there not 
been a group of individuals that you have said, hey--and like 
the chairman mentioned before, not to take anybody off the very 
important task of their job, but this is an important task. 
This is an important issue.
    So, of those 70,000 employees, why can't we just get one 
group of people designated within the State Department to say, 
hey, it is your job to respond, and respond quickly, to these 
requests so we can get to the truth?
    Mr. Rubin. Ma'am, I assure you that this is the highest 
priority. When individuals at the State Department are asked to 
provide documents to Congress, people move on it. It is not a 
question of people not. It is a question, however, of the 
comprehensive nature of acquiring all the information 
available, and we want to make sure that we do that well.
    Mrs. Roby. Okay.
    Mr. Rubin. That means that if we have one or two 
individuals, they may miss things, so we need to go to 
everybody----
    Mrs. Roby. I am not asking about one or two. I just wanted 
to know if the State Department took this seriously enough that 
they were willing to identify a group of employees of the 
70,000 whose sole job was to ensure that we get to the truth 
about what happened in the days and weeks, months leading up to 
the attack in Benghazi and then what happened afterwards.
    I am going to move on. I want to know how these searches 
are done by the individuals across--as you have stated, across 
the State Department. Do they do a keyword search? Do they type 
in ``Libya'' or ``Benghazi'' or ``Tripoli'' for any and all 
records that relate to Benghazi? Or is a staff member, you 
know, deemed relevant and then the keyword search is completed?
    I mean, what does this look like? When you say to that one 
employee, it is your job to do this, what do they do?
    Mr. Rubin. It essentially is as you described. It means 
going and searching the files, searching the electronic, the 
hard files, and looking for the documents that are relevant.
    We have multiple document requests underway all the time 
from Congress on multiple issues that affect the whole breadth 
of American foreign policy. And what that means, then, in 
practical purposes is, when Congress says, we need documents on 
topic X, then that topic is shared with the Department, and 
individuals at the Department have to go search for whether 
they have information related to that topic.
    Mrs. Roby. Why is so much time being spent redacting 
material from these documents?
    Mr. Rubin. The State Department has an agreement in place 
with the committee that we are very happy with, which is 
minimal redactions of these 40,000 pages of documents. And the 
committee has told us that they are comfortable with that.
    Mrs. Roby. Well, some of these documents have been highly 
redacted, and, obviously, that takes time, as well.
    Mr. Rubin. Ma'am, those are not necessarily State 
Department redactions. We cover foreign policy across the 
board, and multiple agencies and equities are involved in the 
review process.
    Mrs. Roby. Okay.
    Every document that we receive is digitally stamped and it 
has a Bates number assigned, so this leads us to conclude that 
the records are in electronic format. Why is it that the 
Department has produced all records in paper format despite our 
requests for electronic copies?
    Mr. Rubin. That is historic standard practice from the 
State Department to ensure that we are providing the documents 
in the most user-friendly manner possible. But I am happy to 
take back that request.
    Mrs. Roby. Please do. And please report back to this 
committee as quickly as you can on that.
    There is no order to the paper documents that are being 
produced. They are not in date order, they are not in Bates-
number order, they are not by person, they are not by office or 
bureau. Just boxes of documents.
    So can you give us assurance that your further productions 
of documents will occur not only timely--as you can see from 
the passion of the members of this committee, that we want to 
get to the truth, and so the quicker you can get us this 
information, obviously the better, particularly because of the 
volume. But there is no rhyme or reason to what you are sending 
to us, so could you provide them in some sort of order?
    Mr. Rubin. So, ma'am, this goes back to the original 
questions that you asked. And we are trying to provide the 
documents in as quick a manner as possible that are relevant to 
the committees for their investigations. If you are asking that 
we collate the paper, do the work to review it ourselves, that 
is----
    Mrs. Roby. Well, you are taking a lot of time to redact 
information. It seems that you could at least put them in some 
kind of order.
    So I look forward to your, you know, further participation 
with this committee and your willingness to provide us these 
responses quickly. I would appreciate that you get back to us 
on the electronic format of these documents.
    Mr. Chairman, I yield back.
    Chairman Gowdy. The chair will now recognize the lady from 
California, Ms. Saanchez.
    Ms. Saanchez. Thank you, Mr. Chairman.
    I want to pick up where my colleague Mr. Smith left off, 
which was in countering the suggestion by the chair's 
questioning that somehow the Department of State is not 
forthcoming with their witnesses.
    I believe that, in his questioning, the chairman said that 
DOJ had no problems with the interviews that this committee 
wants to conduct with certain witnesses. But I do hold in my 
hand a letter from the Department of Justice that is dated 
November 21st of 2014, and in that letter it states that they 
do have concerns, because they have an ongoing investigation, 
and that prior to any interviews that the committee would 
conduct, if they could please notify the Department of Justice 
prior to that.
    And I would ask unanimous consent to submit this letter for 
the record.
    Chairman Gowdy. Without objection.
    [The information follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Gowdy. And I am happy to reconcile those two, if 
the gentlelady from California would like me to.
    Ms. Saanchez. Well, I would like to continue with my 
questioning and my comments, and perhaps at the end of the 
hearing there will be an opportunity for the chairman to have 
further time to speak on his time.
    Chairman Gowdy. Very well.
    Ms. Saanchez. So I think that it is clear that DOJ has 
expressed some concerns and that it is patently wrong to 
suggest that somehow witnesses are being withheld from the 
committee. I believe Mr. Smith stated pretty emphatically, and 
I believe it is the case, that no one has said that there are 
witnesses that cannot be interviewed by this committee. So I 
just thought it important to show that, as far back as 
November, that DOJ did communicate with this committee and 
expressed those concerns.
    I want to thank our witnesses for joining us today.
    I have to admit that when this committee was first 
announced some of us were a bit skeptical about the scope and 
the intentions of the investigation. There was, from the 
outset, some uncertainty as to what questions this committee 
would be tasked with answering and whether or not Democratic 
members of this committee would be fairly included in the work 
of the committee. Could partisanship, in fact, be set aside and 
logic and facts guide the course of the investigation?
    And I can only speak for myself in saying that I put those 
concerns aside, in the hope that there would be an honest and 
open investigation that was free of partisan motives. But, boy, 
it really looks like I was wrong on that one.
    The committee members on the Democratic side waited 
patiently as Chairman Gowdy assured us that there would be 
transparency and that minority members would be included in the 
investigation process and that he would outline the questions 
that still needed to be answered. Eight months later, our 
committee still lacks that scope, that transparency, and, more 
than ever, the credibility.
    Now, more than ever, I am convinced that my colleagues on 
the other side of the aisle are in search of this mythical 
creature--this unicorn--and the unicorn being some kind of 
nefarious conspiracy, and that this nefarious conspiracy that 
they are looking for does not, in fact, exist.
    Over the last few months, the majority has systematically 
robbed Democratic members of meaningful participation in this 
investigation. Apparently, our only use is to sit up on this 
dais in full committee hearings and be allowed to ask a few 
simple questions.
    As my colleagues have noted, Mr. Cummings and Mr. Smith 
have noted, Democrats have been excluded from discussions that 
the chairman and his staff have had with material witnesses.
    The chairman has refused to convene an organizational 
meeting or establish rules to address our concerns about the 
increasingly partisan direction that this committee has taken. 
In fact, yesterday the chairman told us that we could only have 
a vote on committee rules if we agree to vote on his rules, 
even though we think that they are patently unfair. I don't 
know what kind of logic that is, that you can have a vote so 
long as it is the vote for what I want. The chairman might have 
the right to do these things, but that doesn't make his actions 
fair or nonpartisan.
    Witnesses have been interrogated without any of our members 
or minority staff present. We have been denied opportunities to 
counter fanciful claims, and we have been left in the dark as 
to what answers Chairman Gowdy and his members are searching 
for.
    Worse, the majority has manipulated facts and evidence to 
suit the narrative of their ongoing conspiracy theories. When 
convenient, they have left out key witness testimonies that 
don't corroborate the outlandish conspiracy theories that they 
are seeking to prove.
    Ms. Saanchez. And when the facts don't add up, they just 
continue to make more fanciful claims.
    For example, back in September, an article reported that 
former Deputy Assistant Secretary of State Ray Maxwell came 
forward with a startling allegation that, ``Hillary Clinton 
confidants were part of an operation to separate damaging 
documents before they were turned over to the Accountability 
Review Board.''
    That allegation, which was reported in many conservative 
media outlets, was that former Secretary of State Hillary 
Clinton's aides ordered the destruction of documents to prevent 
Congress and the ARB from ever seeing them.
    Chairman Gowdy called these allegations incredibly serious 
and told Fox News in mid-October that the committee would be 
investigating this. What he failed to admit was that, at the 
time of the chairman's Fox News interview, Republicans had 
already investigated the Maxwell claim and only found evidence 
against it.
    The day before the chairman's interview on Fox News, his 
staff had spoken to a witness that Mr. Maxwell identified as 
being able to corroborate his claim. Republicans excluded 
Democrats from that interview and told us that they had learned 
nothing, quote, ``of note'' from that witness.
    But when Democrat staff spoke to that witness, he said he 
didn't recall having been in the document review session that 
Mr. Maxwell described. He also denied ever being instructed to 
flag information in documents that might be unfavorable to the 
Department. He further reported that he never engaged in or was 
ever aware of any destruction of documents.
    That witness was perfectly willing to talk to Democrats and 
has always been willing to talk to us. He also never asked to 
be treated as a confidential source. Chairman Gowdy has 
explained why we were excluded from that interview--he has 
never explained that. He has downplayed or discounted the 
factual information that the witness provided. And the 
information was material.
    As a former prosecutor, Mr. Chairman, you understand that 
evaluating the credibility of witnesses and their allegations 
depends on whether the information that they provide can be 
corroborated or not. Although your staff stated that they 
learned nothing ``of note'', in fact they learned that this 
claim was not substantiated by a key witness. And, to me, that 
is incredibly telling.
    Unfortunately, because the facts didn't shoehorn into the 
conspiracy narrative, they failed to divulge that information 
to our side.
    If our goal is the truth and not a predetermined outcome, 
these interviews should have been conducted jointly with 
Democrats and Republicans in the room. Facts that do not 
support serious allegations that we are investigating should 
not and cannot be ignored. These actions sabotage a serious and 
credible investigation. They make it an unfair, exclusionary 
investigation with no transparency. And I, for one, am not 
willing to sit by silently any longer.
    Maybe there is a good reason for all this nonsense. Maybe 
the secrecy is meant to distract from some of the committee's 
shortcomings. In the eight months since its formation, the 
majority in the committee has failed to deliver on some key 
promises. They have yet to request documents from the 
Department of Defense, they have yet to summon any CIA 
witnesses, and they have yet to yield any new information that 
has not already been uncovered by the previous eight--count 
them, eight--in-depth investigations into the attacks on the 
Embassy in Benghazi. That is a pretty abysmal record.
    So if my colleagues and I sound a little frustrated today, 
well, it is with good reason. We have had enough of this 
pursuit and this quest to catch this mythical unicorn. Eight 
separate investigations, bipartisan investigations, where both 
sides agreed on the rules, have been conducted, and none have 
found this nefarious conspiracy.
    If a constituent of mine were audited by the IRS eight 
times for the same year or if some member of the American 
public were tried in a court of law eight separate times for 
the same crime and no wrongdoing was found, we would say that 
it was lunacy to expend the time, effort, and money to continue 
to put them through that again. And yet here we are again.
    But this time, this time, perhaps if we change the rules, 
if we make them unfair and lopsided, give one side the 
advantage of hearing witness testimony and the other side not, 
keep them locked out of the room, well, then maybe, just maybe, 
the outcome might be a little different from this committee 
than from the previous eight.
    Mr. Chairman, the American public, the families that were 
affected by what happened in Benghazi, and the victims 
themselves deserve better. So I am urging you to adopt rules 
that allow for participation of both Republicans and Democrats 
in all future committee interviews so that we can conduct 
credible, nonpartisan, and transparent investigation into this 
matter.
    In the time that I have remaining, I just want to say I 
apologize to our witnesses. These are tensions that have been 
boiling over for some time, but they are tensions that have 
been raised again and again and again.
    And you make much of the fact that we didn't vote to 
empanel this committee or want to be here because we kind of 
suspected that this is where it would end up. And I hate to say 
it, but those who were more cynical, I think, had the better 
argument.
    And, with that, I yield back the balance of my time.
    Chairman Gowdy. I thank the gentlelady from California. And 
I can assure her, I will never give veto power over subpoenas 
to any entity that thinks no subpoena should ever be issued.
    And, with that, I would recognize the gentleman from 
Illinois, Mr. Roskam.
    Mr. Roskam. Thank you, Mr. Chairman.
    I would just like to point out a couple of the internal 
inconsistencies that our friends on the other side of the aisle 
are making.
    Mr. Cummings made a pledge to pursue the truth, the whole 
truth, and nothing but the truth, and Mr. Smith basically said 
you are never going to get it, it is impossible. In fact, he 
said, ``You are never going to get all of the answers. You are 
never going to get all of the documents.'' That is an internal 
inconsistency, and they need to work it out.
    Now, Ms. Saanchez just made an argument that said, well, 
certain information would have disposed of a particular 
question. But had that information been released, it would have 
made an exact argument that said, this is selective leaking of 
information.
    And to Mr. Cummings' point, to go back and use just a 
classic straw man argument--you don't hear that that much, and 
there was really no pretense to it, but the classic straw man 
argument says, this is the Oversight and Government Reform 
Committee. No, it is not. It is a completely different 
committee with a completely different chairman and completely 
different admonition from the House.
    And, really, to characterize this as a partisan process 
that is glacial in nature, when the majority has accepted the 
recommendation of the minority, and that is to have the first 
two subjects at the request of the minority party? Ridiculous. 
It is ridiculous.
    So let's get down to really what this is all about.
    Mr. Rubin, thank you for your time today.
    I thought it was ironic that you are talking now in terms 
of the timing of these things, and that is what has everybody 
concerned, but you are actually speaking in seasons of the 
year. With some happiness, you said, ``We have produced two 
witnesses since the fall.'' Isn't that ironic, that you are not 
speaking in terms of days or weeks or even months, but you are 
characterizing the timing of the Department of State in terms 
of seasons of the year?
    Now, you have come into this with an opinion, haven't you, 
based on your past writings? You wrote a piece about 
politicizing the Benghazi attacks back in October of 2012. 
Isn't that right?
    Mr. Rubin. Yes, I did.
    Mr. Roskam. Let me read the first two paragraphs, and I 
just want to get your opinion and how that opinion intersects 
with today.
    So you wrote, ``The killing of four American patriots in 
Benghazi last month was an act of terror. Those four Americans, 
including the U.S. Ambassador Chris Stevens, represented the 
best of our country. They put their lives on the line to 
advance American interests in a volatile region. They deserve 
the support of their government back home.''
    Paragraph 2: ``Instead of getting that support, their 
deaths are being used as a partisan attack on President Obama, 
part of a false narrative that the President failed them. What 
has failed them is our political system. Rather than supporting 
a serious nonpartisan investigation into what took place and 
what went wrong, waiting to get all of the facts out, 
conservatives are trying to affix blame for their deaths for 
political advantage.''
    Now, I recognize, Mr. Rubin, there has been a lot of things 
coming off of Capitol Hill as it relates to Benghazi, but you 
don't think that this is a frivolous, partisan investigation, 
do you?
    Mr. Rubin. Sir, Chris Stevens was a friend of mine. I 
worked on Capitol Hill----
    Mr. Roskam. I understand that.
    Mr. Rubin [continuing]. Alongside Chris. And----
    Mr. Roskam. You don't think----
    Mr. Rubin [continuing]. Sir, I am sorry----
    Mr. Roskam. Mr. Rubin----
    Mr. Rubin. Okay.
    Mr. Roskam [continuing]. Do you think that that is a 
frivolous, partisan investigation?
    Mr. Rubin. Sir, I am not commenting on the question of is 
this a frivolous, partisan investigation, because you----
    Mr. Roskam. Well, you----
    Mr. Rubin [continuing]. Are reciting what I wrote in 2012--
--
    Mr. Roskam [continuing]. State of mind going into accepting 
responsibility----
    Mr. Rubin [continuing]. When I was not in the government.
    Mr. Roskam [continuing]. At the Department of State. And I 
am interested in a simple question. Do you think that this 
investigation is frivolous and partisan? What is your opinion?
    Mr. Rubin. Sir, again, in 2012, after Chris Stevens was 
killed--and I remember the morning, because he was a friend, 
and I remember when his name was announced on the radio, and my 
heart sunk to my feet because I knew Chris, and he represented 
the best of the State Department, the best of America. And----
    Mr. Roskam. Is this frivolous?
    Mr. Rubin [continuing]. I am sorry, sir, his name at that 
time was not being used in a manner that I felt respected his 
memory.
    Mr. Roskam. Mr. Rubin, is this frivolous? I am asking you 
an opinion about your opinion about this process today. Is this 
frivolous, and is this partisan? What is your answer? Can you 
not----
    Mr. Rubin. Sir----
    Mr. Roskam [continuing]. Give an answer to that simple 
question?
    Mr. Rubin [continuing]. The State Department is and has 
been, from the Secretary on down, happy to comply with and work 
with the committee, as the chairman himself has said in a 
letter as well as in public comment that we have been 
cooperative.
    Mr. Roskam. Mr. Rubin, I thought that was an easy lay-up. I 
thought it was an easy thing for you to say, no, of course this 
is serious, and of course this is not partisan, and let's get 
to it. I find it shocking that you can't give a straight answer 
to that simple question. And you are not going to give it to 
me, so let's move on.
    I find myself oftentimes translating for people. I will 
translate back home what is meant by certain language up here. 
I find it ironic that you work for the State Department and you 
are in the business of understanding foreign language and you 
have misinterpreted the language, the graciousness, and the 
charm of a southern chairman. Because to come in here and to 
sort of claim that you are gratified that we are pleased with 
your cooperation, let me translate for you. He is not pleased 
with your cooperation, he doesn't think that this is going 
well, and he thinks that you are part of the problem.
    Now, you claimed in your original testimony, ``In this 
role, I serve as the Department's chief liaison to the House, 
responsible for ensuring that the multitude of foreign-policy 
issues,'' et cetera, et cetera, et cetera. So your testimony is 
that you are responsible; is that right?
    Mr. Rubin. My testimony is that I am the chief liaison, 
that the State Department has a significant number of people 
working on a significant number of issues. In my job, I convey 
those issues, as requested by Congress, and go back and forth 
in dialogue with the Foreign Affairs Committee, the other----
    Mr. Roskam. Mr. Rubin, back in November, November 18th, a 
season ago, this committee requested the documents, the emails, 
the communiques, and so forth of 11 of the principals on the 
seventh floor. You are familiar with that.
    Now, I brought my computer here today. And I know it is not 
the same thing. I don't want to oversimplify it for the sake of 
being gratuitous. But when I go to my email, which has 
thousands in it, and I type in something like ``United 
Airlines,'' for example, and I sort it, dozens and dozens of 
things come up within the twinkling of an eye.
    When can we expect you to use a similar enterprise? Is 
there a date certain that we can rely on? Because the 
admonition that you have never said no is ridiculous. To never 
say no, you don't have to say no. As a dad, when my kids would 
come to me and I would say--they would ask to do something and 
I didn't want to do it, I would say, ``Let me think about it.'' 
You are doing the exact same thing. You are saying, ``We are 
working on it.''
    Do you remember that scene in ``Raiders of the Lost Ark'' 
at the very end when Indiana Jones goes in and he is talking to 
the government guy and he says, ``Where is the Ark?'' And the 
government guy says, ``We have top people working on it.'' And 
Indiana Jones says, ``What people?'' And the government guy 
says, ``Top people.''
    You are the government guy. You are standing up for ``top 
people.'' You have to bring your game. You have to be the 
expediter. You have to be the one that sheds your past opinions 
about congressional investigations and takes on the job of 
being an advocate so that we can all get to the bottom of this.
    The other side doesn't get to argue in the alternative, 
that it is not moving fast enough, and they are being passive 
aggressive by not participating. That just doesn't work, and it 
is very flatfooted. But what we need from you is a disposition 
of expedition. That is, recognizing that a chairman is not 
happy, don't misinterpret the charm and graciousness of the 
South. I am from Chicago; we have none of that. And we are 
trying to be very, very direct, and that is to be part of the 
remedy, Mr. Rubin, to be part of the solution and to get things 
done.
    Mr. Rubin. As I have said, sir, and as I can assure you, as 
I said in my testimony, we will begin the production of 
additional documents to the committee within days. We are also 
needing the guidance from the committee as to its top 
priorities and sequencing.
    Mr. Roskam. That is arguing----
    Mr. Rubin. The committee had told us it is a top priority.
    Mr. Roskam. No, no. You are making an argument there, Mr. 
Rubin, that says that these things have to be consecutive 
requests. They are not consecutive requests. They are 
concurrent requests. You can walk and chew gum at the same 
time.
    Mrs. Roby made the point, you have 70,000 employees. So to 
make the admonition of the committee that you have to line up 
single-file and you are going to be admitted in and we are 
going to get you this piece of evidence if you ask the right 
way and you are going to give that piece of evidence, come on, 
that is an old trick.
    Mr. Rubin. Sir, we have a record of cooperation with this 
committee. Even----
    Mr. Roskam. Not enough.
    Mr. Rubin [continuing]. In recent days, we proactively 
offered a briefing to this committee that was not requested.
    Mr. Roskam. A briefing. Come on. We need----
    Mr. Rubin. Sir----
    Mr. Roskam. We need the documents of the 11 people on the 
seventh floor.
    Mr. Rubin [continuing]. It was more than a briefing, much 
more than a briefing.
    Mr. Roskam. We need it promptly. And we----
    Mr. Rubin. And we are committed to providing the documents.
    Mr. Roskam. My time has expired. I yield back.
    Chairman Gowdy. The chair will go to the gentleman from 
California, Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman.
    I am still trying to figure out who is Indiana Jones in 
that analogy. I don't think there is an Indiana Jones on this 
panel, much as I would like to say there is.
    I want to comment on a couple things, and I am not sure 
that I have any question for either of the panelists.
    Mr. Higgins, thank you for spending your time with us 
today. I am not sure why you are here, but I appreciate your 
presence.
    And, Mr. Rubin, it looks like your reason for being here is 
so that we can beat up on you, which I think is grossly unfair 
to you and unfair to the State Department, considering that if 
we are going to look to assess responsibility for the slow pace 
of this investigation, we ought to look to ourselves before we 
look to the State Department.
    Given that we didn't ask for a single new document from the 
State Department for the first half-year of the existence of 
this select committee, it seems a bit disingenuous to be 
criticizing the State Department for the pace of our 
investigation. The entire Katrina investigation, that select 
committee, had finished its work before we had even requested a 
document from the State Department and certainly before this 
point in our investigation.
    I think the problem here is not with the pace of the State 
Department's response. The problem all along has been this 
committee has such an indefinite scope, we don't know exactly 
what we are looking for. This was a big part of the reason why 
many Democrats had a reservation about participating in the 
committee or forming the committee. As the chairman pointed 
out, on the vote to form the select committee originally, only 
seven Democratic Members supported it because it was unclear, 
other than the political purpose, what was the purpose of this 
select committee. And in the reauthorization, which took place 
as part of the rules package, not a single Democrat supported 
it. In fact, four Republicans voted against the rules package 
which reauthorized this committee.
    And a big part of the reason is that, even now, eight 
months later, we still don't know what we are looking for. And 
this is a problem not only in terms of this select committee 
and investigation going on indefinitely, but it is also a 
problem in terms of the pace at which we can expect to get our 
document requests responded to. If we had a better idea of what 
we were looking at, if we had a better idea of what was 
actually in controversy, then we could narrow our requests, and 
I am sure we could get it complied with with much more 
alacrity.
    Part of the reason why I think the charter for this select 
committee was as broad as the chairman mentioned is that we 
really didn't know the purpose of this committee. Were we 
looking at gun-running, or were we looking at nonexistent 
stand-down orders, or were we looking at military assistance 
that was ordered not to be provided, or were we looking at any 
other number of myths?
    The challenge has been that, on these issues, it is not as 
if there was a factual controversy. There wasn't, before this 
committee was established. We have had innumerable 
investigations, and we couldn't narrow in on a particular set 
of facts that were in dispute, because it really wasn't a fact-
based dispute as much as a political dispute about how to 
interpret the events.
    So the charter was very broad, and, for that reason, it was 
voted on on a fairly party-line basis. But the committee was 
established. We agreed to participate in the hopes that, 
against our expectation, it would turn out to be something 
different.
    And, initially, it looked that way. And I am grateful that 
the first two hearings were on a very productive course, and 
that is what have we done in terms of implementing the ARB 
recommendations. I think that was very productive to do. I 
think it is very productive to ask, ``Where are we in the hunt 
for those responsible?''
    But we haven't narrowed the scope to those things. We 
haven't narrowed the scope, indeed, at all. We still don't know 
what we are looking for, but we know we are looking for 
something. And it is part of the reason why we feel it is so 
important that we agree on the scope of this investigation; 
otherwise, it is going to go on forever. It really will be a 
partisan fishing expedition, or it will be drawn out to affect 
the Presidential election cycle.
    At the end of the day--and I want to disabuse anyone of the 
idea that was suggested by my colleague--we have never asked 
for a veto over subpoenas. What we have asked for is to be 
notified of them, to have a chance to weigh in. Where they are 
not disputed, our ranking member and chairman can agree on 
them, and where they are disputed, we ought to have a vote on 
them. That is not a veto. They have far more members than we 
do. Provided their members agree with the subpoena requests, 
they should always be approved. But we ought to have at least 
an open debate about it to prevent this from getting into a 
purely partisan exercise, unless that is the goal.
    So I think defining the scope here is going to be very 
important if it is going to have any credibility.
    And the final point I would make on this is, if this 
investigation doesn't produce a bipartisan report, it will have 
been a complete failure. It will be a meaningless failure. 
Because if we don't produce a bipartisan report at the end of 
the day, it will have no credibility. So if we are going to 
invest our time in this, let's make it worthwhile. And that 
means let's make it bipartisan so that the country and the 
families will have the confidence of knowing that this was an 
objective work product.
    Because, honestly, if at the end of the day we have a 
report and the Republicans vote for it and the Democrats vote 
against it, yes, it will pass--you have the majority; you can 
do pretty much whatever you want--but it will have been a 
complete waste of time, and it will be a disservice to the 
families and a disservice to the taxpayers.
    So if we are going to get to that bipartisan work product 
at the end of the day, it is going to have to mean we need to 
know who you are talking to. We need to know when they agree 
with the narrative that some believe; we need to know when they 
disagree with that narrative.
    We ought to be part of the discussions about who we are 
subpoenaing. We ought to be part of the discussion about what 
we are really going to focus on here. I mean, at the end of the 
day, is it really about gun-running? Does anyone really think 
that is what this is about? And if it is not, okay, then let's 
not waste our time on that.
    So let's figure out what this is about. Let's, you know, 
dedicate ourselves to making this a bipartisan work product at 
the end of the day. And we all have too much to do and there is 
too much at stake and too many families who are so deeply 
impacted by this, that they deserve better than anything less 
than bipartisan.
    And I yield back.
    Mr. Jordan [presiding]. The gentlelady from Indiana is 
recognized.
    Mrs. Brooks. Thank you, Mr. Chairman.
    I would like to agree that we do need to get to the bottom 
and we do need to find out what happened, and that is what 
everyone has been talking about. But the manner in which you do 
that, whether you are a lawyer, as I am, former U.S. attorney, 
whether you are a law enforcement official who conducts 
investigations, whether, as my friend from Illinois said, 
whether you are a parent trying to get to the bottom of an 
incident, you have to ask questions and you have to interview 
those who were involved.
    But when the incident involves numerous documents, 
typically in any investigation, you try to get the documents 
ahead of time so that you run an efficient, fair investigation 
when you get to ask witness questions. You have documents in 
front of you that you can ask them the most relevant questions.
    And that, I think, has been the problem that we have had, 
is that while you, Mr. Rubin, have talked about cooperating, 
you have required us to prioritize rather than giving us, as 
Ms. Roby talked about, the universe of documents, and so things 
have been, you know, dribbed and drabbed out to this committee 
over a period of time. And in large part because of that, that 
is why we have not interviewed witnesses yet, because we have 
been waiting on the documents for months.
    And I think when this committee was established the State 
Department knew, as we said, we were going to take the work, 
the documents from the other committees. We didn't want to 
duplicate the effort. We wanted to take the documents from the 
other committees, and it has taken a long time just to get 
those. What was produced to OGR? What was produced to Intel? So 
I just want to say, we have tried in a very thorough, fair 
manner to try to extract the documents from the various 
agencies that have already given the documents to different 
committees.
    Our recommendations do plan to be very--we do need to make 
bipartisan recommendations. I agree with that. But in order to 
conduct a fair, thorough, thoughtful, efficient investigation, 
we have to have the documents first. That is why we have been 
focused on the documents.
    And I have to ask, how can we possibly learn from the 
attacks if we don't learn about the attacks? We can't make 
recommendations going forward if we don't have all of the facts 
about what happened before, during, and after the attack.
    And there are documents that remain to be reviewed. We have 
learned that. You have recently given us new documents that 
were never reviewed prior to the establishment of this 
committee. Even though there have been eight committees that 
received and requested documents in the past, this committee is 
still getting new documents. And our challenge is we don't know 
how many more new documents are out there. And how can that be? 
After 2 years since this tragic incident, how can it be that we 
are still getting new documents?
    And the need to review those documents, as anyone who 
conducts any investigation, that is critical prior to 
interviewing witnesses who have yet to tell their stories to 
Congress. So many witnesses have yet to tell their story to 
Congress.
    And I want to focus on our request to interview those 
witnesses. Our first two requests--and there will be more 
requests, Mr. Rubin--our first two requests for the State 
Department were to interview 22 State Department personnel, 18 
of whom were in Benghazi in the months prior to the attack and 
experienced firsthand the deteriorating security posture, as 
well as the 4 who were in Benghazi. None of those people have 
been interviewed by Congress, to my knowledge--none.
    And so, for the other side to, you know, really try and 
capture all that has been done, how is it that 22 people who 
have direct knowledge have not yet been interviewed by any 
committees in Congress?
    So there are no asked and answered questions from 22 
different people with firsthand knowledge. So we are not 
seeking to duplicate any work that has already been done. This 
is new, fresh work that needs to be done--people who were 
there, people who were in Benghazi prior to the attack, and 
actually people who were there during the attack.
    So would you agree with me, Mr. Rubin, that firsthand 
knowledge, rather than a summary, a report, another agent 
coming in and talking to us, firsthand information is better 
than secondhand information? Would you agree?
    Mr. Rubin. Ma'am, the request for these interviews came on 
December 4th, I believe, and we spoke quickly with the 
committee and the staff to try to figure out what the highest 
priorities were. And it was communicated to us that the four 
Diplomatic Security agents, DS, that that was the highest 
priority.
    And that is where it runs into this complexity of an 
ongoing investigation to prosecute, potentially, the individual 
that is in custody for those terrorist attacks. And the Justice 
Department has raised concerns that we need to be mindful of. 
That is----
    Mrs. Brooks. Well----
    Mr. Rubin. That is the only discussion that we have had 
related to that, to be mindful of that.
    Mrs. Brooks. Thank you.
    And please know that, as a former U.S. attorney and someone 
who was in charge of Victim-Witness Subcommittee for Attorney 
General Ashcroft and Attorney General Gonzales, I am very 
concerned about prosecutions and about victims and witnesses. 
And let me just share with you that our staff is in 
communication with the Justice Department, and we will handle 
these witnesses appropriately.
    But if we made a request to you on December 4th of all of 
these witnesses--and I appreciate you would like them to be 
prioritized. It is January 27th today. There is no date yet 
scheduled for an interview of any of these people. We are not 
going to wait to receive now all of these documents, which 
would have been the more efficient way for a real investigation 
to be done.
    So we would like to know what date. And because we want to 
preserve the safety and security of these personnel, we would 
like to know, I would say within the next 24 hours, which 
witnesses will be made available next week and which witnesses 
will be made available the following week and which witnesses 
will be made available the following week and so on.
    And we all have a certain number of staff, but our staff 
will go to these witnesses, or we will work with you to make 
arrangements to get these staff back to Washington, D.C., to 
conduct these interviews.
    Are you in agreement that that can be done?
    Mr. Rubin. To provide a bit of context----
    Mrs. Brooks. And we will be working with the Justice 
Department on all of this, as well, to ensure their safety and 
security.
    So, assuming that we take the Justice Department 
prosecution off of your plate and assume we work with them on 
how this will be done, will you work with us to get these 
interviews set up in the next week?
    Mr. Rubin. Ma'am, we are always open to communicating and 
speaking with you. I am not the legal expert for the State 
Department. I will not take on that role. But I will tell you 
that----
    Mrs. Brooks. Who is the legal expert?
    Mr. Rubin [continuing]. We have lawyers at the State 
Department that are continually in touch, and individuals and 
staff, with the staff of the committee, and we are always open 
to that conversation.
    Mrs. Brooks. I appreciate that.
    Who is the lawyer from the State Department that we should 
be communicating with with respect to scheduling these 
interviews of up to 22 different witnesses?
    Mr. Rubin. I would have to get you the specific person, but 
I am sure that the staffs know who they are speaking with 
directly about these issues.
    Mrs. Brooks. Who is the head of legal affairs for the State 
Department?
    Mr. Rubin. Well, the Legal Advisor is Mary McLeod. But that 
is the Legal Adviser, the top of the State Department Office of 
the Legal Adviser.
    But within the context of the letter request for these 
interviews, it is important to remember that after we receive 
the requests, we have gone to the committee to ask for the 
priorities. In that interim process, we have prepared 
briefings, we have been engaged. And it took several weeks to 
get the priorities from the committee.
    Mrs. Brooks. Why do you need priorities? They are all 
priorities. Twenty-two people----
    Mr. Rubin. They are all----
    Mrs. Brooks. Why do we have to prioritize? Why does our 
staff have to prioritize to the State Department?
    Mr. Rubin. Because we want to know for your work, to make 
it as easy as possible, what it is that you are looking at as 
the highest to-do item on your checklist.
    Mrs. Brooks. When we don't know what they have to say, it 
is difficult, Mr. Rubin, to know who has the most information.
    And so, at this point, we have the bandwidth and I would 
suggest that the other side has the bandwidth to begin on a 
regular process to set up a schedule as to when we will 
interview each of these 22 witnesses--18 who have not been 
interviewed who worked in Benghazi and in Libya prior and 4 who 
were there at the time of the attack.
    And so will you work with us? Will you commit----
    Mr. Rubin. Of course.
    Mrs. Brooks [continuing]. That your legal department will 
work with us to--and we will pledge that we will work with the 
Justice Department on these witnesses, too, because we 
absolutely do not want to compromise that investigation.
    But these are individuals, some of whom have been 
interviewed by the ARB; is that correct?
    Mr. Rubin. I am not intimately knowledgeable of every 
individual the ARB spoke with.
    Mrs. Brooks. We must have these interviews done in an 
expeditious manner. And if we could please get the documents 
ahead of time, it will make it most effective, and we won't 
need to have multiple interviews with these important 
eyewitnesses.
    Mr. Rubin. Thank you.
    Mrs. Brooks. Thank you.
    I yield back.
    Chairman Gowdy [presiding]. The chair would now recognize 
the gentleman from Kansas, Mr. Pompeo.
    Mr. Pompeo. Thank you, Mr. Chairman. It has been a very 
productive hearing.
    Mr. Schiff seemed confused about why you are here, Mr. 
Higgins. I am about to enlighten him just perhaps a little bit 
about why you are here today.
    The Central Intelligence Agency had turned over a series of 
documents to the House Permanent Select Committee on 
Intelligence. When it wrapped up its investigation, it returned 
those documents, as it did under its instructions and its 
rules, and they provided them to you. In a letter of May 8th, 
then-chairman of the committee, Chairman Mike Rogers asked you 
to hold on to those documents, to secund them in a way that 
they would be available to this committee in a very expeditious 
manner.
    Since at least October, this committee has been seeking 
those documents. November 19th, one of your staff said, quote, 
``Working to try to set up a time next week,'' end of quote. 
December 8th, one of your staff attorneys says, quote, ``We are 
in the process of organizing and page-numbering,'' end of 
quote. And then December 15, one of your staff attorneys said, 
quote, ``We will reach out to you soon,'' end of quote.
    That is a series of documents you had already identified. 
You had turned them over on Thursday of last week after 
Chairman Gowdy had to go through the process of notifying you 
that you were going to come here today and have to answer for 
why you hadn't turned over the documents. Coincidence?
    Mr. Higgins. No, sir. Thank you for the question.
    And I absolutely understand your frustration and the 
committee's frustration. Producing these materials has taken 
longer than you consider acceptable and certainly longer than 
we anticipated, as those emails from November and December 
suggest.
    If you bear with me, let me see if I can explain the 
delay----
    Mr. Pompeo. If you will do so quickly, I will be happy to 
bear with you.
    Mr. Higgins. I will do so as quickly as I can. Let me see 
if I can explain the delay.
    The committee first requested access to these documents on 
November 14th, one of the emails you referenced. Other events 
overtook that request. The committee revisited the issue on 
December 8th, asking to see the documents during the week of 
December 15th.
    At that point, those of us in contact with the committee, 
as those emails again suggest, felt that it should be a pretty 
straightforward process of delivering to you the materials that 
we have previously produced to the House Intelligence 
Committee.
    During this time, while we were in contact, our staff most 
familiar with the Benghazi-related documents had been working 
on the State Department document request, reviewing those 
40,000 pages for CIA equities. When we asked them to prepare 
our own documents for delivery to the committee, they made 
three discoveries.
    First, they discovered that the documents we had provided 
to HPSCI and HPSCI had returned to us were very disorganized, 
speaking to Mrs. Roby's previous point. They were not in 
chronological order or any logical order.
    Second, they realized that the documents did not comply 
with the limited redaction criteria that we have previously 
discussed with this committee's staff directors.
    Third, they learned that CIA had not kept an exact soft 
copy of what had been produced to HPSCI. So what that meant was 
that we had to go through a fairly time-consuming process of 
identifying the matching soft copies for the hard copies of 
thousands of pages that we had produced to HPSCI, pairing them 
up, implementing the limited necessary redactions that we had 
agreed with the staff directors, and then sorting them in 
chronological order. And we have run into technical problems 
with Bates-numbering them, but we are hoping that they will all 
be able to be Bates-numbered, as well.
    Mr. Pompeo. Let me see if I can summarize.
    Mr. Higgins. Yeah.
    Mr. Pompeo. You gave some documents to HPSCI, we gave them 
back to you, and you couldn't figure how to give them back to 
us in a timely fashion.
    Mr. Higgins. It----
    Mr. Pompeo. But when the hearing was noticed, you figured 
it out.
    Mr. Higgins. Our internal goal was to finish it by--our 
internal goal was to finish it by this Friday. We did 
accelerate that timeline----
    Mr. Pompeo. You bet. To meet the hearing.
    Mr. Higgins [continuing]. To meet the hearing deadline. But 
we had planned to finish the process I described, as 
bureaucratic and cumbersome as it sounds, we had planned to 
finish that by this Friday at the latest.
    Mr. Pompeo. I appreciate that.
    Mr. Higgins. And I apologize for the delay in----
    Mr. Pompeo. I appreciate that. Can we do better as we move 
forward?
    Mr. Higgins. Absolutely.
    Mr. Pompeo. This was a pretty simple request. Some of the 
other challenges that the State Department has identified 
didn't exist here.
    Mr. Higgins. It certainly appeared simple on its face, and 
we discovered it was more complicated than we thought.
    Mr. Pompeo. Let me talk about witnesses. There have been 
comments from the other side that we haven't asked for 
witnesses. We are going to.
    Will you agree that you will help us find those folks?
    We will do all the right things to safeguard these folks.
    Mr. Higgins. Yep.
    Mr. Pompeo. They are warriors. We don't want to compromise 
them at all.
    Will you agree that you will work with us closely to help 
us get those folks so that we can get their testimony, as well?
    Mr. Higgins. Yes, sir. And we actually just received today 
the committee's request to speak with CIA witnesses, and we 
will do so.
    Mr. Pompeo. Great. Thank you.
    That brings up a point. You just got it today. I assume 
when these witnesses come, you are going to hope we only have 
to interview them once; is that correct?
    Mr. Higgins. I would hope so.
    Mr. Pompeo. It would be your strong preference that we not 
turn up a document after we have brought these folks back from 
goodness knows where to come testify, that we don't have to 
call them back to address another document. One time is better 
than two and certainly better than three, right?
    Mr. Higgins. Absolutely.
    Mr. Pompeo. And, Mr. Rubin, you would agree with that?
    Mr. Rubin. Yes, although I am not the expert in interviews.
    Mr. Pompeo. But you would prefer, if we have to round up 
somebody from the State Department, that we just do it once and 
not have to gather them up, get your lawyers, all that goes 
with that, a second or a third time. That is better from your 
agency's perspective. Fewer of your 70,000 top people, right?
    Mr. Rubin. I can't speak to the effectiveness of 
interviews, but----
    Mr. Pompeo. Here is what I can say. We have heard today 
from the other side that we haven't called witnesses, and I 
will tell you, until you get us the documents, we are going to 
be very loathe to bring them, because I know we will never get 
these folks back a second time. You all will find hundreds of 
reasons not to bring them the first time and thousands of 
reasons not to bring them the second time. And we are just 
going to do this right. We are going to do this, but we are 
actually going to pursue this inquiry in a reasonable way.
    Mr. Higgins, it took us a long time to get some of our 
senior staff clearances. We have a three-star general that 
couldn't get an SCI completed until--when was it? When the 
hearing was noticed. Right. Shortly before the hearing was 
noticed, we get the final set of clearances that we need.
    Can you assure us that that won't happen in the future? We 
will probably have additional folks that need to be cleared. 
This is a comity between the branches that you all have done 
good work on in the past.
    And it is one the things--again, we have been trying to 
move this along. Now we have the minority saying we are too 
slow. But we didn't have clearances for staff members in a 
timely fashion.
    Mr. Higgins. Yeah. We will commit to working with you to 
make the clearance process work as smoothly as possible.
    I am happy to explain in more detail, if you like, the 
various--what CIA's limited role is in the clearance process 
and why it has taken as long as it has in a few instances.
    But the bottom line is we will work with you to clear 
individuals as quickly as possible.
    Mr. Pompeo. I appreciate that. And if it is the case that 
we are doing something wrong, that we don't have the 
information you need to get our folks clearances, we are happy 
to expedite that, as well.
    But the executive branch sat for far too long and prevented 
this committee from taking on the task that we have been 
charged with. And so we hear the minority today talk about it, 
but the executive branch prevented us from having access to 
information and having staff people having access to 
information that was necessary for us to execute this 
investigation the way these families deserve.
    Mr. Higgins. Usually, when clearances have taken longer 
than we would like or you would like, it is because necessary 
information to adjudicate staff access to sensitive 
compartmented information, which is the limited piece that CIA 
does, was not provided, and we either had to come back to the 
committee or go to our interagency partners.
    We have worked through that. I think our security officers 
and the committee's security officer now have a good 
understanding of how we can move clearances forward in an 
expeditious fashion.
    Mr. Pompeo. Thank you.
    Mr. Higgins, have you received any document requests from 
the minority on this committee?
    Mr. Higgins. No, I have not.
    Mr. Pompeo. Have you received any witness requests from the 
minority on this committee?
    Mr. Higgins. No requests independent from the request that 
we received this morning.
    Mr. Pompeo. Mr. Rubin, have you received any document 
requests from the minority on this committee?
    Mr. Rubin. We have not, sir.
    Mr. Pompeo. Have you received any witness requests from the 
minority on this committee?
    Mr. Rubin. Similar to Mr. Higgins.
    Mr. Pompeo. So this today, this is fascinating to watch Mr. 
Schiff and Mr. Cummings talk about us being too slow. You have 
seen all the impediments that have been put in our way, whether 
it was clearances or priorities or documents we can't get our 
hands on.
    They claim that they want to get--Mr. Cummings says, ``I 
want to make sure we complete a fact-finding investigation.'' 
He hasn't asked for a single fact, not one. It must be the case 
that he believes every fact has been determined, that every 
relevant line of inquiry has been completed, that there is not 
a single witness left in the universe to be interviewed.
    The minority complains that they have been shut out. They 
haven't asked for a single thing that they have not been 
granted by an incredibly gracious Chairman Gowdy with respect 
to a witness that they wanted to call before this committee or 
a document they sought from any group within the executive 
branch.
    The hypocrisy to come today and say we are both moving too 
slow and asking for too much is something the American people 
will get to judge as we move forward.
    But I can assure you, I can assure you that everyone on 
this committee--and I hope the minority will join in this 
effort in a serious way, as well--are going to ask questions. 
And it may be the case, as Mr. Smith said, we won't get to all 
of the answers that we would like to get to, but we are going 
to work at it.
    We are going to take this charge seriously, and I hope the 
minority will participate, as well. They talk about us being 
too slow, and yet they act as if their job is to play defense--
right?--to stop us from engaging in this inquiry, not 
participate in it, not say, Mr. Chairman, I think we ought to 
ask this witness questions X, Y, and Z. Mr. Chairman, might it 
be possible that we could obtain documents from this particular 
group? No, rather, they simply act as if they are the brake on 
this committee's investigatory work, as if their sole role is 
to claim that this investigation is political and not to 
participate.
    We still have men and women out in the world who are 
engaged in important intelligence-collection activities and 
keeping America safe. We have an obligation to make sure this 
committee gets it right. And I hope the minority in this 
committee will begin to take that role seriously, that they 
will participate actively, that they, too, will seek witnesses 
and documents and information, such that when we get done, 
they, too, will be able to sign the report.
    I would love for nothing more than to have a bipartisan 
report that gets to all of the facts. But if the minority 
continues to believe that their role is to play fullback to our 
efforts to block everything we do, not to clear the way but, 
rather, to obfuscate, I suspect we will end up in a place where 
we get a good, factual report but the American people don't get 
the full resolution that they deserve.
    With that, I yield back my time, Mr. Chairman.
    Chairman Gowdy. Thank the gentleman from Kansas.
    Now recognize the gentleman from Georgia, Mr. Westmoreland.
    Mr. Westmoreland. Thank you, Mr. Chairman.
    I just wanted to make a couple of comments about some of 
the statements that have been made about the delay in this 
committee in the request for documents.
    This committee was formed in May, and I don't know if the 
minority leader didn't appoint the other side's members for 2 
or 3 weeks, but we had to staff up. Both sides had to hire 
staff. And then, once we hired the staff, they had to get 
security clearance, which Mr. Higgins and Mr. Pompeo alluded 
to. We had a retired three-star general that applied for 
clearance last September, and I think he got it last Thursday. 
You know, if that is not dragging your feet, I don't know what 
it is.
    But I don't know why we would have wanted all of these 
documents, 40,000 pages of documents, if we didn't have staff 
cleared to read them. I mean, we Members of Congress, I know 
you all don't think we do much, but, you know, for us, reading 
40,000 pages of documents, that is what the staff is for.
    And so, just in the amount of time it took to staff up, to 
find the right people from both sides of the aisle, and then to 
get their security clearance, I think everybody needs to 
understand, took a while.
    And then, as far as the delay, you know, I think the delay 
has come from our chairman being too bipartisan. I know there 
were hours, if not a couple days, spent on arguing about how 
much time each member would get. And I think the minority 
wanted it down to 9 minutes and 20 seconds each, the way this 
thing was deliberated. And so if we had to spend a couple of 
days arguing about, you know, 40 seconds or 20 seconds or 
whatever it is, you are not going to get very far.
    And as far as us being in the majority, I think the 
President said in 2009, elections have consequences.
    As Mr. Pompeo said, he and I both sit on the Intelligence 
Committee, and reading the resolution that was put before the 
House, we have those same authorities as the Intel Committee.
    Mr. Higgins, would you agree with that?
    Mr. Higgins. The resolution does carve this committee into 
House Rule X, which establishes the Intelligence Committee's 
authorities over intelligence sources and methods.
    Mr. Westmoreland. So you will give this committee the same 
respect that you would HPSCI in any request for documents or 
witnesses that they might request?
    Mr. Higgins. I would be happy in a classified setting to 
discuss the materials that CIA has provided as well as the 
limited set of redactions that we are implementing pursuant to 
conversations with this committee's staff directors.
    Mr. Westmoreland. Okay.
    And 40,000 pages came from the State Department, and Mr. 
Rubin mentioned that there were a lot of--talking about 
redaction--there were a lot of other agencies, I guess, that 
had to look at what was in there, as far as redacting the 
information.
    When the CIA received this, were there any redactions 
already done?
    Mr. Higgins. We had a team that we sent down to the State 
Department to review. These were materials that had previously 
been produced in part in unclassified form with redactions. We 
sent a team down to review the redactions, see which redactions 
could be lifted.
    As Mr. Rubin indicated, the documents are now less redacted 
than they were previously, in part because other agencies, like 
CIA, lifted their redactions. Again, any remaining redactions 
that are CIA redactions are pursuant to discussions that we 
have had with the staff directors here.
    Mr. Westmoreland. So is the CIA the only redactions that 
are there now?
    Mr. Higgins. I can't speak to that, sir, I am afraid. I am 
not sure which other agencies----
    Mr. Westmoreland. Mr. Rubin, is that the documents, the 
40,000 pages of only the CIA redactions?
    Mr. Rubin. So the different agencies that have redacted in 
different areas cut across the entire interagency, as----
    Mr. Westmoreland. Do we know what agencies----
    Mr. Rubin [continuing]. Many agencies are involved in 
foreign policy.
    Mr. Westmoreland. Do we know what agencies redacted what 
parts of----
    Mr. Rubin. We would be happy to meet with your staff to go 
over specific documents to identify where those redactions came 
from.
    Mr. Westmoreland. Okay. But you know where they came from, 
the redactions, and why they are there, right?
    Mr. Rubin. Again, if another agency did it, we would engage 
with the committee staff and with that agency to help figure 
that out.
    Mr. Westmoreland. So, by sending this to the CIA--and I am 
assuming that the CIA had, unlike the State Department, had 
some people specifically set up looking at these Benghazi 
documents?
    Mr. Higgins. Between our Office of Congressional Affairs 
and our Office of General Counsel, we have people that we have 
designated to review Benghazi-related documents. So we actually 
sent people to the State Department; they didn't send the 
documents to us.
    Mr. Westmoreland. Okay. So you send them to the State 
Department rather than the State Department sending you over 
some documents and you looking at it. You actually send folks 
over to the State Department; is that correct?
    Mr. Higgins. That is correct.
    Mr. Westmoreland. Now, when--and I am assuming that for 
both the Intel Committee and this committee, that the 
redactions you make are for methods and sources. Is that 
correct?
    Mr. Higgins. That is correct. Again, I would be happy to 
provide more detail in a different setting. We have discussed 
that with the staff directors from both sides.
    Mr. Westmoreland. Okay. So do you think that the State 
Department shares emails between employees that would have 
methods and sources in it?
    Mr. Higgins. There may be times that emails in the State 
Department's possession do include CIA information that would 
speak to intelligence sources and methods.
    Mr. Westmoreland. Between employees?
    Mr. Higgins. Or between, say----
    Mr. Westmoreland. So the State Department feels like there 
are employees that can see methods and operations that Members 
of Congress can't see?
    Mr. Higgins. I wouldn't--I can't speak as to----
    Mr. Westmoreland. Mr. Rubin, I will ask you that question. 
Are there emails between State Department employees that 
disclose methods and operations and stuff that they can see 
that Members of Congress can't see?
    Mr. Rubin. In terms of communicating with other agencies, 
we have classified communication systems that are part of the 
daily operations of foreign policy, broadly speaking, national 
security. So, certainly, at State, we communicate with all 
relevant agencies who are engaged in national security.
    Mr. Westmoreland. Yeah. Well, I know that Mr. Higgins 
testified that all of our facilities have been secured and 
certified by the CIA. I guess that they are secure, and I think 
most of the Members have top security clearance.
    And so are you saying that the State Department employees 
just send these emails back and forth over something and that 
we shouldn't be seeing that?
    Mr. Rubin. No, sir. Related to the document request and the 
40,000 pages of documents that you have, there are some 
classified documents, there are some unclassified documents, in 
that which we have provided.
    Mr. Westmoreland. What would be considered classified from 
another agency that Members of Congress would not need to see?
    Mr. Rubin. There is a process for determining when 
information is classified as well as to what level. I can't 
speak----
    Mr. Westmoreland. Okay.
    Mr. Rubin [continuing]. In total specificity, but, 
generally, when communications are classified between agencies 
or within agencies, if that type of information is related to 
the document request we are also seeking it.
    Mr. Westmoreland. So is the CIA the last agency to get the 
redactions to say what needs to be lifted and what doesn't?
    Mr. Rubin. I believe the process is that we have gone to 
all the agencies who are relevant to these documents and asked 
for review.
    Mr. Westmoreland. But Mr. Higgins said they lifted some of 
the redactions.
    Mr. Rubin. Yes. And we, as well, in agreement with the 
committee several months ago also agreed with the committee's 
desire to have minimal redactions, and so we went back over 
these 40,000 pages of documents and minimized the redactions.
    Mr. Westmoreland. You know, there was an outside group 
prior to this committee being formed that had a Freedom of 
Information Act and got some information, I believe it was from 
the State Department, with no redactions. And as a member of 
the Intel Committee, we had gotten the same information, 
redacted.
    Now, would it be easier for this committee or to have 
better information if we would go through the Freedom of 
Information Act rather than requesting it from you all?
    Mr. Rubin. Well, my understanding is that we received 
18,000 FOIA requests last calendar year. So----
    Mr. Westmoreland. Well, they got theirs a little quicker--
--
    Mr. Rubin [continuing]. It is safe to say it is 
significant.
    Mr. Westmoreland. They got theirs quicker than we got ours, 
with no redactions.
    Mr. Rubin. And this is part and parcel of our cooperative 
working relationship with the committee, which is to provide 
these documents with minimal redactions. Many of the categories 
that were redacted from the State Department we have reduced.
    Mr. Westmoreland. Well, your understanding of a cooperative 
relationship is probably a little bit different than some of 
ours.
    But I yield back the balance of my time.
    Chairman Gowdy. The chair now recognizes the gentleman from 
Maryland, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    As I sit here, I just want to make sure that we are all 
pursuing the same thing. I have heard a lot of comments that 
concern me.
    Let me be clear. We have never, ever tried to veto the 
chairman's subpoena power. It just never happened. And I have 
made it clear to him over and over again. What we have asked 
for is to be true partners in this investigation.
    And, you know, I think it is sad that, I mean, over my now 
18 years in the Congress, to see how distrust wells up. And 
when distrust wells up, it is very hard to get anything done, 
period.
    Mr. Rubin, I was watching you a minute ago when you talked 
about Ambassador Stevens, and I watched you as you--you may not 
have even realized it--became emotional talking about your 
friend. And as you became emotional, I couldn't help but think 
about all the other employees at State who are probably 
watching this right now and how they go out and give their 
blood, their sweat, their tears, away from their families, to 
do the jobs that they do. So the first thing I want to do is 
thank them.
    Same thing for you, Mr. Higgins.
    I mean, when I think about this effort that we are making--
and I don't care what anybody says--it is a search for the 
truth. And be clear that what is one person's truth, somebody 
else may say something opposite and that is their truth. But 
our effort is to bring our heads together, our best efforts, 
and hopefully have some trust to look at all the facts and come 
to some conclusions.
    Mr. Schiff was absolutely right. If we end this with a 
Republican saying this and a Democrat saying that, what have we 
really accomplished?
    You know, one of the things that we did--and I thought it 
was great that we did it--was to sit down and meet with the 
families. And I made every one of those meetings. And it was 
painful. It was painful. They did not ask for Republicans to 
sit on one side of the room and Democrats to sit on the other. 
They wanted us to sit down and work together, period. One of 
the things that they said over and over and over and over 
again, don't make this a political football. One of the family 
members said, ``If you are going to do that, don't even 
bother.'' They talked about how they wanted closure. They 
talked about how they wanted us to truly work together.
    And what we have asked for is to merely be partners, to do 
what we were sworn to do, what we do every 2 years, and affirm 
when we put up our hand and swear that we are going to support 
the Constitution and we are going to support the people that we 
represent.
    And I have said it before, and I will say it again, and I 
will say it until I die: Each one of us represents over 700,000 
people, and all of us have value. All of us bring something to 
the table. And so it should not be about the ``gotcha'' moment. 
It should be about the ``big-picture'' moment. It should be 
about how do we make sure that this does not happen again.
    And, you know, as I listen to a lot of the discussion, 
there was an issue of the question of whether the Democrats had 
put forth witnesses. And the fact is that we need a scope, we 
need an idea of what we are going after.
    And I wouldn't even be here, wouldn't even be talking about 
this if we didn't already have eight reports. And, I mean, we 
talk about a surety, but, dammit, we have a situation where 
millions of American taxpayers' dollars have been paid for 
these reports. We have had Members of Congress that have been 
paid to sit in hearings. We have staff members that have 
produced those reports. And some of them are bipartisan. Some 
of them are bipartisan.
    And so, when the Democrats on this committee--while we were 
waiting for things to move forward--we got our staff involved, 
and we created something that answers questions. And contrary 
to what the Chairman has said in writing, we weren't trying 
to--we didn't say that these are things that we--we were not 
judging the facts. We just went to the sworn testimony. We went 
to the various documents on various hearings, documents that 
had been presented, and just the very questions that had been 
asked, the main questions. We just presented the documents. 
``Just the facts, ma'am.''
    Mr. Cummings. That is all we tried to do.
    And then we said, now that we have done that, now that we 
have that, let's see what it is that we can work together on, 
if there is something, that has not been answered. Just want 
some scope. And we have been asking for scope.
    So, Mr. Rubin, you talked about priorities. The chairman 
basically lays out, as I understand it, basically what he 
wants. Have you been given priorities?
    Mr. Rubin. Thank you, Mr. Cummings.
    We have been given priorities, which is to ensure that in 
the immediate term that we provide additional documents related 
to a specific search for former Secretary Clinton as the top 
priority, and the second priority is that the four DS agents, 
that we work with them to help secure interviews.
    Mr. Cummings. And how did that come about? In other words, 
how did it come about that there was a list of priorities? How 
did that happen? And why did it happen?
    Mr. Rubin. It was initiated through the continual contact 
and communications between staff and committee and our 
officials, our personnel at State, including with the letters 
on December 4th and at the end of November, I think November 
18th, as well, that laid out those questions. And then through 
engagement with staff it got refined.
    Mr. Cummings. And, see, this is the thing. That is why we 
need to have an idea of where we are going. And I assume that 
the chairman's goal is to address certain issues in a certain 
order, and he needs certain information. I agree with that, 
that he needs certain information.
    Mr. Rubin. Yes.
    Mr. Cummings. But when it comes to priorities, he sets 
those priorities, not you.
    Mr. Rubin. We are responsive to the committee's priorities.
    Mr. Cummings. And, now, tell me the priority list right 
now. What is that list?
    Mr. Rubin. It----
    Mr. Cummings. Number one?
    Mr. Rubin. Number one is the production of documents that 
were requested regarding former officials, and the top of the 
list, again, was Former Secretary Clinton. Number two is the 
interviews of the four Diplomatic Security agents that we 
referenced.
    Those have been the ones that have been clearly 
communicated. That is not to say that the other requests are 
forgotten. That is not it at all. What it is is to say that 
those are the issues, those are the items that we have worked 
most diligently on.
    We have a good story here, in that we are producing--within 
several days, we will begin producing to the committee the 
beginning of those documents that were requested. It has only 
been 6 weeks, roughly, since the initial request and then about 
a month of the finalization of that. And in between that, we 
have prepared for hearings that didn't come about, we had the 
holiday break. And then this hearing, as well, the request was 
last Wednesday evening, and we are here this morning on 
Tuesday.
    Mr. Cummings. I just emphasize as I close that we have got 
to--it is just not common ground, we have to move to higher 
ground. That is what these families deserve, that is what the 
American people deserve, and I think that is what we all want.
    With that, I will yield back.
    Chairman Gowdy. The gentleman from Ohio.
    Mr. Jordan. Democrats asked for no hearings in August and 
October, and now they complain. The Democrats picked the topic 
for the first hearing, the ARB recommendations; now they 
complain. Democrats asked and got a second hearing on the ARB 
recommendations; now they complain. In that second hearing, Mr. 
Smith, a member of the committee, was given a courtesy I have 
not seen in my 8 years as a Member of Congress. He was given 
the courtesy after surgery to call in and ask questions. Now 
they complain. I mean, to suggest that the chairman has been 
unfair is ridiculous on the face.
    Now, the one thing they have said that makes some sense is 
the pace is way too slow. And that is why we have you guys here 
today, because we have got to pick up the pace and get to the 
truth for the families that Mr. Cummings just referenced.
    So, Mr. Rubin, I am going to start with an issue that I 
dealt with in my work on the standing committee here in the 
House and has carried over to this committee, and that is the 
ARB process.
    Are you familiar with the ARB process, Mr. Rubin?
    Mr. Rubin. I am not the expert on the whole ARB process.
    Mr. Jordan. Specifically, do you know something about the 
Benghazi ARB process at all?
    Mr. Rubin. Yes, I do in general terms. I know----
    Mr. Jordan. We have had two hearings on it in this 
committee, the first two hearings that the Democrats requested, 
so it is a pretty important issue.
    Mr. Rubin. And Secretary Starr came and testified on that.
    Mr. Jordan. He sure did.
    Now, many claim the ARB process and the ARB report was 
independent. Mr. Cummings said this. He called it the 
``independent Accountability Review Board.'' ``Their report was 
independent.'' Gerry Connolly, another Member of Congress, said 
it was the ``independent Accountability Review Board process.'' 
Greg Starr, who you just referenced, Mr. Rubin, a colleague of 
yours who has testified twice in this committee, the first two 
hearings, said this: ``Thank you for inviting me today''--this 
was at the last hearing--``to provide insight on the 
Department's progress to implement the recommendations made by 
the independent Benghazi ARB.''
    I mean, they use the term ``independent'' almost as if it 
is part of the title, part of the official title.
    Now, I think there are problems with that claim. Secretary 
Clinton picked four of the five members of the board, of this 
so-called independent board. Secretary Clinton was never 
interviewed by this so-called independent board. Cheryl Mills, 
her chief of staff, wasn't interviewed by this so-called 
independent board. Cheryl Mills, her chief of staff, was given 
a draft copy of the report before it went public to make edits 
of this so-called independent board.
    Admiral Mullen, a co-chair of the board, after interviewing 
Charlene Lamb, an employee at the State Department, then called 
up Cheryl Mills and said, ``Hey, Ms. Lamb is going to testify 
in front of a congressional committee. She is not going to do a 
good job. I am giving you a heads-up.'' So when the co-chair 
gives a heads-up to the people he is supposed to be 
investigating about a potential witness coming in front of 
Congress, that doesn't really scream independence.
    But, Mr. Rubin, let's assume they are all right. Let's 
assume they got it right, that this is independent, in spite of 
those facts, in spite of the fact the Secretary picked four of 
the five people who are supposed to investigate her. I don't 
know anywhere else in life where a potential subject of an 
investigation gets to pick their investigators.
    In spite of the fact she wasn't interviewed, in spite of 
the fact Cheryl Mills wasn't interviewed, in spite of the fact 
that they got a draft copy, in spite of all those facts, let's 
just assume that Mr. Cummings and Mr. Connolly, Mr. Starr are 
correct when they say ``independent,'' how do we test that 
claim if you guys won't give us the documents? How do we test 
the claim of independence if you guys won't let us see the 
record?
    Now, Mr. Rubin, you have had a subpoena, a subpoena 
Congress issued in August of 2013, saying, we want every single 
document, or, as the chairman has made clear, all documents 
relating to the ARB investigation. We want to know, when are 
you going to comply?
    Mr. Rubin. Sir, as I previously mentioned----
    Mr. Jordan. When are you going to put those ``top people'' 
that Mr. Roskam referenced, when are you going to put those 
``top people'' on a subpoena that has been issued a year and a 
half ago to get us the documents so we can test the claim that 
this ARB was actually independent?
    Mr. Rubin. Sir, as I just mentioned with Mr. Cummings, the 
top two priorities that were communicated to us for the 
immediate term were these interviews----
    Mr. Jordan. Hey, hey, wait. This is what we have to get 
past----
    Mr. Rubin [continuing]. And these other documents. But we 
are happy----
    Mr. Jordan. Wait, wait, wait, wait, wait. This is what we 
have to get past, this ``priority'' line you keep using.
    Mr. Rubin. Okay.
    Mr. Jordan. The subpoena was August 2013. We are not 
talking a couple months ago. We are talking a year and a half 
ago. So you have top people working on it--here is the point: 
You can't have it both ways. You can't claim, oh, this was the 
independent, be-all, end-all, definitive statement that the ARB 
made on Benghazi, and then not let us see the record.
    All we are saying is, okay, we will accept this fact. We 
don't think it is independent, we will accept it. Show us the 
record.
    Mr. Rubin. So we had two hearings with Secretary Starr 
about the ARB implementation. The ARBs themselves are crucial 
to providing security for our people. That is why they are 
there.
    And the document request that you are referencing, there 
are documents, as well, in the 40,000 pages of documents that 
are related----
    Mr. Jordan. Okay.
    Mr. Rubin [continuing]. To the ARB, as well.
    Mr. Jordan. That is where I wanted to go. You are right 
where I wanted to go, Mr. Rubin.
    You have given us 40,000 documents. Contained in that 
40,000 documents are--within that 40,000 documents is every 
document that the ARB received from the State Department. So 
the State Department gave the ARB a bunch of documents. Are 
everything the ARB had contained in that 40,000?
    Mr. Rubin. I have not read all 40,000 pages.
    Mr. Jordan. No, no, I am not telling you----
    Mr. Rubin. I cannot----
    Mr. Jordan. I don't expect you have read them.
    Mr. Rubin. I don't want to misstate that, but----
    Mr. Jordan. Have we received everything that ARB received?
    Mr. Rubin. Again, sir, I did not----
    Mr. Jordan. Simple question.
    Mr. Rubin [continuing]. Draft the ARB, and I have not read 
all 40,000 pages. I am here to convey to the House, to the 
committee, what it is that we are working on. So the----
    Mr. Jordan. The documents--it is a simple question.
    Mr. Rubin. It is not something I----
    Mr. Jordan. This is the key question. The documents the ARB 
got from the State Department, are they in the 40,000 that we 
now have? Every single thing that the ARB got from the State 
Department, are they in the 40,000 documents we now have? 
``Yes'' or ``no''?
    Mr. Rubin. The document request----
    Mr. Jordan. Well, then you can say ``I don't know.''
    Mr. Rubin. The document request was related more broadly to 
an overall search for documents from the State Department.
    Now, as far as the ARB investigation, it is important to 
also recognize that ARBs over time need to stand the 
independence, as you have cited----
    Mr. Jordan. And, Mr. Rubin----
    Mr. Rubin [continuing]. And that is for the security of our 
personnel.
    Mr. Jordan. Mr. Rubin, there are two components to this 
subpoena. There is what I was just talking about. Does this 
committee now have everything that the State Department gave to 
the Accountability Review Board? That is question one.
    Question two is: The notes, the records, the files, the 
interview notes, everything that the ARB compiled in their 
investigation, we want those too. Does this committee have 
those notes, records, and files that the five-member ARB panel 
had? Do we have that information?
    Mr. Rubin. Again, I cannot tell you specifically every 
single document----
    Mr. Jordan. It is my understanding we don't.
    Mr. Rubin [continuing]. Has been in there. But, again, if 
the committee tells us that that is in their priorities and 
sequencing----
    Mr. Jordan. No, we----
    Mr. Rubin [continuing]. The number-one thing--
    Mr. Jordan. We don't have to tell you that.
    Mr. Rubin [continuing].--I am happy to convey that back and 
have us move on that.
    Mr. Jordan. Mr. Rubin, are you familiar with the statute, 
the statute that created the ARB? Says this:
    Mr. Rubin. 1986. Yes.
    Mr. Jordan. ``Records pertaining to administrative 
proceedings under the ARB process shall be separated''--
``shall,'' not ``may''--``shall be separated from all other 
records of the Department of State and shall be maintained.''
    So here is the point. You should have a file already, with 
everything nicely and neatly organized, of all the documents 
that the State Department gave the ARB and all the notes, 
files, and records that the ARB compiled in their 
investigation. When they did the interviews, how many people 
they interviewed, did they interview them alone, did they do it 
in groups--you should have all that in a file. That should be 
the simplest thing in the world to hand over to us, and you 
haven't done it.
    And yet--and yet--everyone claims the ARB was independent. 
How can we test the claim when you won't give us what the 
statute requires--a separated, segregated file on what the ARB 
did--and you guys keep it?
    Mr. Rubin. Part of the core integrity of the ARB----
    Mr. Jordan. Do you have that file separated and segregated 
like the statute requires?
    Mr. Rubin. Sir, the core integrity of the ARB is reliant 
upon discretion----
    Mr. Jordan. Mr. Rubin----
    Mr. Rubin [continuing]. And the ability of these people----
    Mr. Jordan [continuing]. These questions are so simple. Is 
there a segregated file like the ARB statute requires? Do you 
have that separated, segregated, ready-to-hand-over-to-us-at--a 
long time ago, frankly, but do you have it separated and 
segregated?
    Mr. Rubin. I would have to go and ask our experts about 
that. Again, I----
    Mr. Jordan. This is amazing.
    Mr. Rubin [continuing]. Am the liaison to the House.
    Mr. Jordan. You were invited to come here today to tell us 
about the documents. The statute says you are supposed to have 
them separated and segregated, ready to--maintaining those, and 
you don't even know if you have them and can't give them to us?
    Mr. Rubin. No, I am not saying that. I am saying that I am 
going to get our experts----
    Mr. Jordan. You are saying you don't know. I got that 
answer.
    Mr. Rubin [continuing]. To help convey that.
    Mr. Jordan. One last----
    Mr. Rubin. I want to get you the proper information.
    Mr. Jordan. One last thing, Mr. Chairman.
    In the article you wrote 1 month after four Americans were 
tragically killed, one of them a friend of yours and a great 
Ambassador, in the article you wrote that Mr. Roskam cited 
earlier, you talked about not rushing to judgment. And you 
specifically said we should wait to get all the facts out--
direct quote from your guest blogger column.
    And here is the irony. Wait to get all the facts--you said 
``wait to get all the facts,'' and now you are the guy who can 
give us the facts. You are the guy who should have the ARB file 
separate, segregated, ready to hand over, and you guys won't do 
it, after you had said that a month after this tragedy. And now 
this should be ready to be give over to us, and the State 
Department is saying, well, keep prioritizing, we have top 
people on it, keep getting in line, we are working with you, we 
promise we will work with you, we are going to get to it 
someday, sometime, somehow.
    It is not going to fly, Mr. Rubin.
    Mr. Rubin. Sir, we have been proactive with the committee. 
We have provided briefings that the committee didn't request. 
And we are always open to, as I stated earlier, to have these--
--
    Mr. Jordan. The subpoena was a year and a half ago. I don't 
know how you can say you have been proactive and helpful when 
you won't even comply with the statute and give us what the law 
requires you to give us and have it segregated and separated 
for us, and, oh, by the way, claim independence in the process.
    Mr. Chairman, I yield back.
    Chairman Gowdy. I thank the gentleman from Ohio.
    Mr. Rubin and Mr. Higgins, I think both of you have 
something in common with every member of the committee, which 
is a deep and abiding respect for the four people who gave 
their lives for this country. So I think that you share our 
desire to do what the House instructed us to do.
    And you will note the Department of Justice is not at the 
table. You made reference, Mr. Rubin, to the Department of 
Justice. Ms. Saanchez made a reference to the Department of 
Justice. And I asked her to yield time so I could clarify that, 
and she is well within her rights not to do so.
    The Department of Justice did write us a letter, and we met 
with them, and we addressed the concerns that they had about 
protecting the integrity of their prosecution, which I can 
assure you, given my former line of work, I want them to be 
wildly successful with their prosecution. So I would never do 
anything to jeopardize that. We met, we discussed it, we worked 
out the issues. They are not at the table. That is why they are 
not at the table.
    I don't enjoy these hearings. I would rather have a hearing 
about substance, not about process. I don't want another 
hearing like this. But when my colleagues are complaining about 
the pace--and I have colleagues on this side, which I never 
thought I would ever hear in my life, say that I am too 
polite--I never thought I would hear that. I hope my three 
sisters are watching. We are going to have to ratchet it up, 
and if the letters don't work, then we are going to have to 
resort to a more formal legal process, because I want this 
concluded.
    And I will note--I don't think any of my colleagues on the 
other side of the aisle have had an opportunity to highlight 
this point yet, but I am sure that they would agree with me--
there has not been a single leak of anything that either of you 
have provided to us. There has not been a single selective 
release of information, not one.
    So the people on this committee take their responsibility 
seriously. This is not a political exercise for us. Most of the 
people who ask me about Benghazi, I could not tell you their 
political ideation, if they have one. They just want to know 
what happened. And I intend to tell them, and I intend to tell 
them sooner rather than later.
    So the letters haven't worked, and the southern politeness 
has not worked. We are going to ratchet it up. Because I need 
access to the documents and the witnesses, and we need to be 
able to conclude our work.
    With that----
    Mr. Cummings. Would the gentlemen yield----
    Chairman Gowdy. Certainly.
    Mr. Cummings [continuing]. Just for one question?
    You know, as I listened a few moments ago to the last 
questioner I just want to make sure that the--consistent with 
what you just said, us getting the job done--that apparently 
they have priorities that are being set, and I want to make 
sure that they have the proper instructions.
    I mean, on the one hand, we have some Members saying, you 
know, give them everything and don't worry about priorities. 
But, on the other hand, they say that you have set certain 
priorities. And I just--I mean, I want to make sure that they 
are clear as to the marching orders--that is all.
    Chairman Gowdy. Well, that is a great question, Mr. 
Cummings. And in a perfect world when people ask you for 
priorities, that is exactly what they want. They want to know 
what your priorities are, because they intend on complying with 
all of your requests. They just want to know what are we going 
to do tomorrow and what are we going to do the next day and 
what are we going to do the next day. After a year and a half 
of waiting on compliance with a subpoena, the argument that we 
need priorities just rings a little bit hollow.
    And if I were to tell you--if I were to tell you, I want 
you to prioritize Mr. Cummings' emails, then someone is going 
to spin that into that we don't care about the other people's 
emails, we are just obsessed with the gentleman from Maryland, 
we don't care about any other witness. So I am not going to 
fall for that. I am not going to fall for the trick of telling 
you what is really important. It is all important. That is why 
the word ``all'' is in the resolution.
    So I can't tell you. I can tell you this: if you start 
producing documents on a regular basis, consistent with our 
request, nobody is going to complain to you that you are not 
giving them to us in the order in which we want them.
    Mr. Cummings. Will the gentleman yield?
    Chairman Gowdy. Yes.
    Mr. Cummings. The reason why I asked that question is 
because it is my understanding that your staff had told them 
that it was okay to not make the top priority the ARB 
information--and you can correct me if I am wrong--and then 
concentrate on the other things.
    Is that right? Is that----
    Mr. Rubin. That is my understanding.
    Mr. Cummings. Yeah.
    And so all I am saying is, I just want--I understand what 
you are saying, and it makes a lot of sense. I just want to 
make sure that we are clear. And that way, we--you talk about 
not wanting to have more hearings. I understand that, too. But 
then I don't want folks to be in a position where they come 
back and say, well, you said one thing, and we tried to do what 
you asked us to do, and then there is--I don't want any wiggle 
room, I guess.
    Chairman Gowdy. And I appreciate the gentleman from 
Maryland's point. I guess my point would be that this committee 
did not even become constituted until last May.
    So what was the priority between the time Oversight sent 
you the subpoena on the ARB and this committee even coming into 
existence? Because God knows it couldn't have been anything we 
asked for.
    So you kind of get my point. I mean, you can't wait a year 
and a half and say, well, we didn't give it to you because we 
didn't realize it was a priority.
    Mr. Rubin. We were producing significant numbers of 
documents throughout that period. We have been producing 
documents practically every month since October of 2012.
    Chairman Gowdy. I understand that, but it has been how many 
years now?
    Mr. Rubin. Unfortunately, 2 and a quarter.
    Chairman Gowdy. Right. And I realize there are some people, 
including people within the administration, that think Benghazi 
happened a long time ago. I can tell you, for the folks that 
are waiting on answers, including the family members that both 
of us met with, it might as well have been yesterday. So they 
want the truth.
    And nothing gets better with time. Memories do not improve. 
Documents get misplaced. Recollections fade. That is why we 
have a speedy trial clock. It is ironic, the Department of 
Justice has to try Khattala within a certain period of time for 
that very reason.
    So to ask me to prioritize, when all of it is important, I 
am not going to fall for that trap, no, siree--okay.
    With that, having said that--I want to repeat it again. I 
have no interest in having another hearing like this. Zero. 
None.
    And I don't think for a second that you are the 
decisionmaker at the State Department, no offense to you. I 
don't think you decide which documents to produce and which 
ones--don't. So what I would like you to do is go back to your 
department and say, I don't want to go back there.
    So let's find a way to be in compliance with the request 
sooner rather than later so the committee can do its job, and 
then we can all produce a product that we can take pride in, 
that answers the questions, and we can all go back to whatever 
we were doing before the Speaker asked us to do this. Okay? 
Fair enough?
    Mr. Rubin. Thank you. We are happy to.
    Chairman Gowdy. All right. Thank you.
    With that, we are adjourned.
    
    [Whereupon, at 12:51 p.m., the committee was adjourned.]

                            [all]

</pre></body></html>
